<html>
<title> - OVERSIGHT OF THE NUCLEAR REGULATORY COMMISSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
             OVERSIGHT OF THE NUCLEAR REGULATORY COMMISSION

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                AND THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 9, 2015

                               __________

                           Serial No. 114-71
                           
                           
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                        


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                                  _________
                                  
                                  
                                  
                                  
                                  
                         U.S. GOVERNMENT PUBLISHING OFFICE
  97-999 PDF                      WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001

                                
                        
                        
                        
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                                  (ii)
                                  
                                  
                                  
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JERRY McNERNEY, California
JOSEPH R. PITTS, Pennsylvania        PAUL TONKO, New York
ROBERT E. LATTA, Ohio                ELIOT L. ENGEL, New York
GREGG HARPER, Vice Chairman          GENE GREEN, Texas
DAVID B. McKINLEY, West Virginia     LOIS CAPPS, California
MIKE POMPEO, Kansas                  MICHAEL F. DOYLE, Pennsylvania
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN P. SARBANES, Maryland
BILL JOHNSON, Ohio                   PETER WELCH, Vermont
BILLY LONG, Missouri                 JOHN A. YARMUTH, Kentucky
RENEE L. ELLMERS, North Carolina     DAVID LOEBSACK, Iowa
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
RICHARD HUDSON, North Carolina
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
                                 ------                                

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
GREGG HARPER, Vice Chairman          PAUL TONKO, New York
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               KURT SCHRADER, Oregon
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
DAVID B. McKINLEY, West Virginia     MICHAEL F. DOYLE, Pennsylvania
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
RICHARD HUDSON, North Carolina           officio)
KEVIN CRAMER, North Dakota
FRED UPTON, Michigan (ex officio)



                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     3
    Prepared statement...........................................     4
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    55

                               Witnesses

Stephen G. Burns, Chairman, Nuclear Regulatory Commission........     7
    Prepared statement...........................................    10
    Answers to submitted questions \1\...........................    56
Kristine L. Svinicki, Commissioner, Nuclear Regulatory Commission 
  \2\............................................................    23
William C. Ostendorff, Commissioner, Nuclear Regulatory 
  Commission \2\.................................................    23
Jeff Baran, Commissioner, Nuclear Regulatory Commission \2\......    24

                           Submitted Material

Chart, ``Nuclear Regulatory Commission: Runaway Regulatory 
  Growth,'' submitted by Mr. Flores..............................    49

----------
\1\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/meetings/IF/IF18/
  20150909/103923/HMTG-114-IF18-Wstate-BurnsS-20150909-SD057.pdf.
\2\ Ms. Svinicki, Mr. Ostendorff, and Mr. Baran did not submit 
  statements for the record.
  
  
  


             OVERSIGHT OF THE NUCLEAR REGULATORY COMMISSION

                              ----------                              


                      WEDNESDAY, SEPTEMBER 9, 2015

                  House of Representatives,
                   Subcommittee on Energy and Power
                             joint with the
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:07 a.m., in 
room 2123, Rayburn House Office Building, Hon. John Shimkus 
(chairman of the Subcommittee on Environment and the Economy) 
presiding.
    Members present: Representatives Whitfield, Shimkus, 
Harper, Olson, Barton, Murphy, Latta, McKinley, Kinzinger, 
Johnson, Long, Ellmers, Bucshon, Flores, Mullin, Hudson, Upton 
(ex officio), McNerney, Tonko, Green, Capps, Castor, Sarbanes, 
Welch, Loebsack, and Pallone (ex officio).
    Staff present: Gary Andres, Staff Director; Will Batson, 
Legislative Clerk; Leighton Brown, Press Assistant; Allison 
Busbee, Policy Coordinator, Energy and Power; Tom 
Hassenboehler, Chief Counsel, Energy and Power; A.T. Johnston, 
Senior Policy Advisor; Dave McCarthy, Chief Counsel, 
Environment and the Economy; Chris Sarley, Policy Coordinator, 
Environment and the Economy; Dan Schneider, Press Secretary; 
Peter Spencer, Professional Staff Member, Oversight; Andy Zach, 
Counsel, Environment and the Economy; Christine Brennan, 
Democratic Press Secretary; Jeff Carroll, Democratic Staff 
Director; Jacqueline Cohen, Democratic Senior Counsel; Tiffany 
Guarascio, Democratic Deputy Staff Director and Chief Health 
Advisor; Rick Kessler, Democratic Senior Advisor and Staff 
Director, Energy and Environment; and Alexander Ratner, 
Democratic Policy Analyst.
    Mr. Shimkus. I ask my colleagues to take their seats, and I 
am going to call the Joint Subcommittee on the Environment and 
the Economy and Energy and Power to order. And I would like to 
recognize myself for 5 minutes for an opening statement, which 
I will share with Chairman Whitfield.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Thank you for attending this morning's hearing to discuss 
the Nuclear Regulatory Commission. The NRC is responsible for 
licensing and regulation of our fleet of nuclear power plants 
as well as management of nuclear materials which impact our 
lives daily. This is a critical responsibility and our 
congressional oversight of the Commission is vital.
    My home State of Illinois generates the most nuclear energy 
in the country. However, the State's nuclear power generation 
faces strong economic challenges. With low-cost natural gas and 
minimal growth in electricity demand, I am concerned that the 
economic impact associated with an increasing price of 
regulatory compliance will disproportionately affect those 
economically distressed nuclear power plants.
    The nuclear industry's cost of complying with regulatory 
action has doubled over the last 10 years. The cost of 
compliance results from a layering of regulatory actions on 
nuclear power plants which become more burdensome. I am pleased 
the NRC recognizes the need to consider the regulatory impact 
on licensees and minimize the cumulative effect of regulation.
    I commend Chairman Burns for acknowledging this principle 
in a recent vote on containment protection rulemaking. Your 
vote to supply the policy, and I quote, ``most in line with the 
Agency's efforts to reduce the cumulative effects of regulation 
in which there is little to no additional safety benefit to be 
gained by proceeding'' deserves recognition.
    In addition to reducing the cumulative effects of 
regulation, the nuclear industry needs certainty in interacting 
with a reliable and efficient regulator. NRC must assure its 
actions are clearly justified, and NRC staff follows 
established processes which adhere to NRC's principles of good 
regulation.
    I look forward to hearing from the Commission other 
proposals for NRC to improve the efficiency in which it 
functions as a regulator. Used fuel management continues to 
remain the top priority for this committee. Proceeding with a 
permanent repository, Yucca Mountain maintains strong 
bipartisan support. I applaud NRC staff for recently releasing 
the draft supplemental environment impact statement on 
potential groundwater impacts for Yucca Mountain. The draft--
environmental impact statement, again, verifies the repositor 
can safely operate for 1 million years and affirms the site is 
the best solution to permanently dispose of spent nuclear fuel. 
The Federal Government's inability to fulfill its legal 
obligations established by the Nuclear Waste Policy Act 
continues to increase every year Yucca Mountain is delayed. The 
NRC and Department of Energy must resume consideration of the 
Yucca Mountain license application and reach a final decision 
whether the site, as science has indicated, can safely store 
spent nuclear fuel.
    In upcoming months, we consider other important components 
of a used fuel management system, issues such transportation, 
benefits for host States and communities, the role of 
consolidated interim storage and linked to a long-term 
repository, and system of budgeting and funding challenges 
should be thoughtfully examined to inform used fuel 
legislation.
    I look forward to hearing from the Commissioners today, and 
I thank you for your service.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Thank you for attending this morning's hearing to discuss 
the Nuclear Regulatory Commission (NRC). The NRC is responsible 
for licensing and regulation of our fleet of nuclear power 
plants, as well as management of nuclear materials which impact 
our lives daily. This is a critical responsibility and our 
Congressional oversight of the Commission is vital.
    My home State of Illinois generates the most nuclear energy 
in the country. However, the State's nuclear power generation 
faces strong economic challenges. With low cost natural gas and 
minimal growth in electricity demand, I am concerned the 
economic impact associated with an increasing price of 
regulatory compliance will disproportionately affect those 
economically distressed nuclear power plants.
    The nuclear industry's cost of complying with regulatory 
action has doubled over the last 10 years. The cost of 
compliance results from a layering of regulatory actions on 
nuclear power plants, which become more burdensome. I am 
pleased the NRC recognizes the need to consider the regulatory 
impact on licensees and minimize the cumulative effect of 
regulation.
    I commend Chairman Burns for acknowledging this principle 
in a recent vote on containment protection rulemaking. Your 
vote to support the policy ``most in line with the agency's 
efforts to reduce the cumulative effects of regulation'' in 
which ``there is little to no additional safety benefit to be 
gained by proceeding'' deserves recognition.
    In addition to reducing the cumulative effects of 
regulation, the nuclear industry needs certainty in interacting 
with a reliable and efficient regulator. NRC must assure its 
actions are clearly justified and NRC staff follows established 
processes, which adhere to NRC's Principles of Good Regulation. 
I look forward to hearing from the Commission other proposals 
for NRC to improve the efficiency in which it functions as a 
regulator.
    Used fuel management continues to remain a top priority for 
this committee. Proceeding with a permanent repository at Yucca 
Mountain maintains strong bipartisan support. I applaud NRC 
staff for recently releasing the draft supplemental 
environmental impact statement (SEIS) on potential groundwater 
impacts for Yucca Mountain. The draft SEIS again verifies the 
repository can safely operate for 1 million years and affirms 
the site is the best solution to permanently dispose of spent 
nuclear fuel. The Federal Government's inability to fulfill its 
legal obligations established by the Nuclear Waste Policy Act 
continues to increase every year Yucca Mountain is delayed. The 
NRC and Department of Energy must resume consideration of the 
Yucca Mountain license application and reach a final decision 
whether the site, as science has indicated, can safely store 
spent nuclear fuel.
    In upcoming months we will consider other important 
components of a used fuel management system. Issues such as 
transportation, benefits for host States and communities, the 
role of consolidated interim storage, and system budgeting and 
funding challenges should be thoughtfully examined to inform 
used fuel legislation.
    I look forward to hearing from the Commissioners today, and 
thank you for your service.

    Mr. Shimkus. And with that, I yield to the gentleman from 
Kentucky.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Thank you very much, Chairman Shimkus. And I 
want to thank the Commissioners for being with us today. We 
genuinely appreciate your being here and the job that you do.
    I think it is quite clear that the NRC does have a 
reputation of a gold standard since its establishment over 40 
years ago in 1975. Your reliance on the principles of good 
regulation, independence, openness, effijciency, clarity, and 
reliability are the foundation of its credibility and as it 
protects public health and safety through licensing and 
regulation of nuclear power plants.
    However, proposed regulatory actions such as the mitigation 
beyond design basis and the containment protection rulemaking 
recently threatened, in some of our views, to deviate from 
these principles, and potentially diminish the Commission's 
credibility.
    In fact, I sent a letter with Chairman Upton expressing 
concerns over the inappropriate use of qualitative factors by 
the NRC to justify rulemakings in the absence of any 
quantitative cost benefit justification. We have not received a 
response yet from the Commission about that.
    It has been encouraging that the Commission recognized the 
need to ensure that regulatory requirements are appropriately 
justified, and that the Commission adhere to its regulatory 
framework and uphold the principles of good regulation, as 
Commissioner Ostendorff highlighted recently.
    We are, of course, concerned also about appropriately 
aligning NRC's budget and staffing levels with the 
organization's workload, which has changed dramatically over 
the last number of years. So we look forward to your testimony 
and your insights, and thank you once again for joining us. And 
my time is expired.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    Good morning and welcome to this morning's hearing with the 
Nuclear Regulatory Commission (NRC). I want to thank the 
Commissioners for being here with us today.
    The NRC's reputation as the ``gold standard'' nuclear 
regulator was established over the 40 years since its creation 
in 1975. The Commission's reliance on its principles of good 
regulation--independence, openness, efficiency, clarity, and 
reliability--are the foundation of its credibility as it 
protects public health and safety through licensing and 
regulation of nuclear power plants. This reputation was well-
earned, even as the industry experienced milestone events such 
as the nuclear emergency at Three Mile Island and the terrorist 
attacks of September 11th.
    However, proposed regulatory actions such as the 
mitigation-beyond-design-basis and the containment protection 
rulemaking recently threatened to deviate from these principles 
and potentially diminish the Commission's credibility. In fact, 
I had sent a letter with Chairman Upton expressing concerns 
over the inappropriate use of ``qualitative factors'' by the 
NRC to justify rulemakings in the absence of any quantitative 
cost-benefit justification. Unfortunately, we have not yet 
received a response from the Commission.
    It was therefore encouraging that the Commission recognized 
the need to ensure that regulatory requirements are 
``appropriately justified'' and that the Commission ``adhere to 
its regulatory framework and uphold the principles of good 
regulation,'' as Commissioner Ostendorff highlighted.
    I also appreciate the Commission's commitment to serve as a 
reliable regulator by resolving actions in a timely manner. 
Both the NRC and the nuclear industry responded to the 2011 
accident at the Fukushima plant in Japan with a robust 
reexamination of safety, emergency preparedness and have 
reinforced our confidence in the safe operation of our nuclear 
power plants. The Commission's direction to develop a plan to 
now resolve the remaining post-Fukushima recommendations is an 
appropriate step to providing reliability in the regulatory 
regime.
    I am concerned about the need to appropriately align NRC's 
budget and staffing levels with the organization's workload. 
Over the previous 10 years, NRC's budget, staff, and backlog of 
licensing actions have steadily increased while the number of 
operating reactors and total licensing actions has decreased. 
These trends are troubling and are not indicative of an 
organization committed to efficiency. The NRC now has a number 
of initiatives underway to examine the cause of these trends 
and recommend a strategy to improve performance. I look forward 
to hearing how the Commission will consider these efforts in an 
effort to improve the organization's efficiency.
    Thank you again for appearing before us today, and I look 
forward to hearing your testimony.

    Mr. Shimkus. I thank my colleague, and now I recognize the 
ranking member of the subcommittee, Mr. Tonko, for 5 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, and good morning. I thank Chair 
Shimkus and Chair Whitfield for holding this hearing, and 
certainly to Chairman Burns and Commissioner Svinicki and 
Commissioner Ostendorff and Commissioner Baran, thank you for 
appearing before the subcommittee today.
    And, Commissioner Baran, congratulations on your new 
position with the Commission. It is great to see you again here 
at the committee in a new role.
    The electric utility sector is undergoing significant 
changes, and the nuclear power industry certainly is affected 
by these given changes. The utility model that has prevailed 
for over the past century is now in great midst of change. 
Overall electricity demand is stable; power plants have aged; 
new technologies and markets are changing grid management; 
renewable power has grown; and the relationship between 
utilities and their customers is, indeed, changing.
    Policies to encourage greater energy efficiency and lower 
emissions are also important factors, along with the expansion 
in domestic natural gas supplies. And we are experiencing 
shifts in weather and climate. All of these factors are working 
together to reshape this vital sector of our economy.
    Chairman Burns' testimony includes some statistics that 
illustrate the current situation for nuclear power. Five 
reactors began the process of decommissioning, and 14 others 
are in some stage of that process. Economic conditions may 
result in additional plants being shut down. These retirements 
are not being offset with any new units. Chairman Burns' 
testimony cites five new plant authorizations and another six 
active applications for new licenses. In some areas, similar 
trends can be seen for older coal and oil-fueled generation.
    The nuclear industry also continues to face the difficult 
problem of waste disposal. We still have not resolved this 
issue, and I believe that an exclusive focus on the Yucca 
Mountain facility will not provide the comprehensive solution 
that we need and that we deserve. Nuclear power still accounts 
for a significant amount of our baseload generation. And in 
some areas, it plays an important role in the mix of power 
supply and to ensure, indeed, reliability.
    But for nuclear power to continue as a viable power 
generation option, we need to look beyond the traditional 
policy framework that has been with us for decades and consider 
how nuclear power will best fit into the new grid and sector 
structures that are emerging.
    One thing, however, has not changed: The need for strong 
safety standards and rigorous enforcement of those standards. 
The Commission's role in regulating this industry is crucial to 
public safety and to the future of this industry. The industry 
clearly is facing some economic challenges, but these 
challenges cannot and should not be overcome by sacrificing 
safety. This is an interesting and challenging time for the 
nuclear power industry and for the Commission. And I look 
forward to hearing from all of our witnesses today about the 
Commission's efforts to guide the nuclear industry through its 
transition that is underway.
    Again, I thank all of you for appearing before the panel 
here today, and I yield back the balance of my time, Mr. Chair.
    Mr. Shimkus. Gentleman yields back the balance of his time.
    The Chair is looking for the chairman of the full 
committee, but he is going to submit his opening statement for 
the record.
    Does anybody on the majority side seek time for an opening 
statement?
    Anyone on the minority side?
    Chair recognizes ranking member of the full committee Mr. 
Pallone for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I want to thank the 
ranking members as well for holding this hearing.
    This is a critical moment in time for the nuclear industry 
and its regulators. The Commission should be commended for its 
ongoing efforts to adapt the size and structure of the NRC to 
today's regulatory realities. And it is clear that moving 
towards a safe, efficient, and modern nuclear fleet should be 
an important part of our Nation's effort to combat climate 
change. And that is why I am pleased to see progress is being 
made on the construction and licensing of the first four new 
commercial power reactors in decades. Advancements in nuclear 
technology, particularly in the area of small modular reactors, 
hold the possibility of a newer safer generation of nuclear 
power.
    However, nuclear power and technology still have challenges 
to overcome. For new reactors, the test is to show that such 
units can be brought online in a timely and cost-effective 
manner; a question that, for now, remains unanswered.
    For existing units, it is critical that they be able to 
meet the safety needs of a post-Fukushima world, the security 
challenges of a post-9/11 world, and the financial requirements 
of a market characterized by some of the lowest natural gas and 
renewable prices in recent history.
    We also still need to address the storage and disposal of 
nuclear waste and the rapidly accelerating phenomena of 
decommissioned units. I believe there is an important role for 
nuclear energy to play in addressing global climate change, but 
I want to make perfectly clear that safety must come first. I 
am, therefore, both interested and concerned about recent votes 
by the Commission to reject the recommendation of the NRC's 
professional staff with regard to certain post-Fukushima 
safeguards. In no way, shape, or form can safety take a 
backseat to cost or competitive pressures, and that would be a 
recipe for disaster.
    So the job of the Commission is to regulate nuclear power 
for the benefit of all Americans, not just one industry or 
sector. So we must work together to find a way forward for 
nuclear energy without sacrificing safeguards.
    And, again, I thank the Commissioners for coming today and 
look forward to their testimony. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    I want to thank the subcommittee chairmen and ranking 
members for holding this Nuclear Regulatory Commission 
oversight hearing. Welcome Chairman Burns, Commissioners 
Svinicki and Ostendorff, and welcome back to the committee 
Commissioner Baran.
    This is a critical moment in time for the nuclear industry 
and its regulators. The Commission should be commended for its 
ongoing efforts to adapt the size and structure of the NRC to 
today's regulatory realities.
    And it's clear that moving toward a safe, efficient and 
modern nuclear fleet should be an important part of our 
Nation's effort to combat climate change. That is why I'm 
pleased to see progress is being made on the construction and 
licensing of the first four new commercial power reactors in 
decades. Advancements in nuclear technology, particularly in 
the area of small modular reactors, hold the possibility of a 
newer, safer generation of nuclear power.
    However, nuclear power and technology still have challenges 
to overcome. For new reactors, the test is to show that such 
units can be brought online in a timely and cost effective 
manner --a question that, for now, remains unanswered. For 
existing units, it's critical that they be able to meet the 
safety needs of a post-Fukushima world, the security challenges 
of a post-9/11 world, and the financial requirements of a 
market characterized by some of the lowest natural gas and 
renewable prices in recent history. We also still need to 
address the storage and disposal of nuclear waste and the 
rapidly accelerating phenomenon of decommissioned units.
    As I stated previously, I believe there is an important 
role for nuclear energy to play in addressing global climate 
change, but I want to make perfectly clear that safety must 
come first. I am, therefore, both interested in and concerned 
about recent votes by the Commission to reject the 
recommendations of the NRC's professional staff with regard to 
certain post-Fukushima safeguards. In no way, shape or form can 
safety take a back seat to cost or competitive pressures. That 
would be a recipe for disaster. The job of the Commission is to 
regulate nuclear power for the benefit of all Americans, not 
just one industry or sector, so we must work together to find a 
way forward for nuclear energy without sacrificing safeguards.
    Again, I want to thank the Commissioners for coming today, 
and I look forward to hearing the testimony.

    Mr. Shimkus. The gentleman yields back his time.
    The Chair now would like to welcome the full--well, the NRC 
Commission as presently seated, and recognize Chairman Burns 
for a 5-minute opening statement.

 STATEMENTS OF STEPHEN G. BURNS, CHAIRMAN, NUCLEAR REGULATORY 
    COMMISSION; KRISTINE L. SVINICKI, COMMISSIONER, NUCLEAR 
  REGULATORY COMMISSION; WILLIAM C. OSTENDORFF, COMMISSIONER, 
 NUCLEAR REGULATORY COMMISSION; AND JEFF BARAN, COMMISSIONER, 
                 NUCLEAR REGULATORY COMMISSION

                 STATEMENT OF STEPHEN G. BURNS

    Mr. Burns. Thank you, Chairman Shimkus and Chairman 
Whitfield and Ranking Member Tonko and members of the 
subcommittee. I appreciate the opportunity to appear before you 
today to discuss NRC licensing and regulatory activities.
    Just as we did 40 years ago when the agency first began 
operation, NRC finds itself in a changing environment. Over the 
past 15 years, the NRC grew to meet a variety of challenges. In 
response to industry's announced plans in the early 2000's to 
construct a new fleet of reactors, the NRC recruited staff and 
restructured the agency's licensing organization for reactors. 
The NRC needed additional resources following the terrorist 
attacks of September 2001, with a focus on security, 
safeguards, and emergency preparedness. And also affecting 
agency priorities were the implementation of safety 
enhancements as a result of the March 2011 accident at the 
Fukushima Dai-ichi nuclear power station in Japan, as well as 
the unexpected decommissioning of several reactors before the 
end of their licensing term.
    It is a different picture today, particularly in the new 
reactor area. The projected workload has scaled back, with now 
only six applications remaining active out of the 18 combined 
license applications that were filed.
    The Commission, in acknowledging these changing priorities, 
recently endorsed a number of recommendations from our staff on 
changes the agency could make now, and over the next 5 years to 
its structure, workforce, and regulatory processes. While these 
efforts are ongoing, the Commission will continue to emphasize 
both the importance of our safety and security mission and the 
excellence with which we strive to achieve it.
    After the Fukushima Dai-ichi accident, the NRC assessed the 
significance of the event for the U.S. nuclear fleet, and 
developed with industry and stakeholder comment proposed 
actions to enhance the safety of plants in the United States. 
We have been diligent in ensuring that priority is given to 
implementation of the most safety-significant of the post-
Fukushima enhancements, and most licensees will complete the 
majority of the high priority enhancements by the end of 2016. 
And this is a significant achievement.
    In the rulemaking area, the Commission recently directed 
the staff to provide a proposal for increasing the Commission's 
involvement in the early stages of the rulemaking process. The 
staff's proposal is due to the Commission by mid October. The 
agency's use of quantitative and qualitative factors in 
regulatory decision making has been of high interest to 
stakeholders in recent years, and I acknowledge the committee's 
interest, as demonstrated by the letter we received, and you 
will be receiving an answer in the near future.
    The Commission recently approved the staff's plans for 
updating guidance using the--regarding the use of qualitative 
factors to improve the clarity, transparency, and consistency 
of the agency's regulatory and back-fit analyses.
    Finally, I want to note in the area of advanced reactors, 
being prepared to evaluate potential applications for light 
water-based small modular reactors and non-light water reactor 
technologies presents some challenges to the NRC. But we are 
prepared to receive and review any such applications under our 
existing framework. The NRC expects to begin reviewing one 
small modular reactor design application in late 2016. Our 
current licensing framework is adequate for conducting reviews 
of the advanced reactor application, but we recognize that some 
work needs to be done with respect to establishing acceptance 
criteria for non-light water technologies. Within the 
constraints of our budget, the agency is working on advanced 
reactor activities with the Department of Energy, industry 
standard-setting organizations, and with the Generation IV 
International Forum.
    In conclusion, the NRC, through its long history, has been 
a responsible regulator. Our staff have always represented the 
best of the best in terms of competence, professionalism, and 
dedication to the agency's mission to protect public health and 
safety and the common defense and security. The world at large 
often looks to the NRC as a standard for nuclear regulation. We 
are reshaping the agency to meet the changing environment in 
which we find ourselves, while retaining the right skill sets 
to fulfill our unchanging and challenging safety and security 
mission.
    I thank you and I will be pleased to answer your questions.
    [The prepared statement of Mr. Burns follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
   
    Mr. Shimkus. Thank you.
    The Chair now recognizes Commissioner Svinicki for 2 
minutes if you have any opening statement to give.

               STATEMENT OF KRISTINE L. SVINICKI

    Ms. Svinicki. Thank you, Chairman Shimkus and Ranking 
Member Tonko for the opportunity to appear here today.
    Chairman Burns has given an overview of a number of 
important issues before the Commission. I think I will just 
share one observation.
    I was privileged to join this Commission in 2008. So I have 
been observing the NRC and participating in these activities 
for a long time now. That has validated me in a conclusion that 
for large organizations, performance is generally cyclic in 
nature. And so I have the burden and the blessing of knowing 
the very high levels of performance that NRC is capable of as 
an organization. But we have had a lot on our plate, and I 
think now we have not been perhaps as agile at times as 
external events might have made us be. So Project AIM, to me, 
is--it is a challenge, but it is also a very sincere 
opportunity for NRC to refocus on some of its internal 
processes and perhaps do that inward look. And as we right-size 
and adjust our resources, I am very, very confident that this 
is an opportunity for the NRC to tackle a number of internal 
challenges. And if we are successful at that, I think we can be 
very proud of it.
    Thank you.
    Mr. Shimkus. Thank you. The Chair now recognizes 
Commissioner Ostendorff for 2 minutes.

               STATEMENT OF WILLIAM C. OSTENDORFF

    Mr. Ostendorff. Chairman Shimkus, Ranking Member Tonko, and 
members of the subcommittee, thank you for the opportunity to 
be here today.
    Chairman Burns has already provided an overview in his 
testimony of key issues in the budget, Project AIM, and the 
changing nuclear industry environment. I am in complete 
alignment with his testimony. I do, however, want to expand a 
bit upon the status of post-Fukushima safety enhancements.
    Along with Commissioner Svinicki, I have been involved in 
all of the Commission's decisionmaking related to what safety 
changes should be resulting from Fukushima lessons learned. 
Looking back over the actions of the NRC over the last 4 years 
as a result of Fukushima, I firmly believe the agency has acted 
on a foundational basis of solid science and engineering. We 
have also acted consistently with the NRC's principles of good 
regulation. Most importantly, the Commission has evaluated new 
requirements in a structured manner, faithfully adhering to the 
NRC's longstanding regulatory framework.
    Specifically, new requirements beyond those required for 
adequate protection cannot be imposed unless they constitute a 
substantial increase in the overall protection of the public 
health and safety, and this satisfies a cost-benefit analysis.
    The Commission recently approved what I consider to be the 
capstone rule of our response to Fukushima, the mitigation of 
beyond design basis events rulemaking. This rulemaking codifies 
significant enhancements for station blackout, spent fuel pool 
safety, onsite emergency response capabilities, and emergency 
preparedness. As evidence of our disciplined approach and 
adherence to the agency's back-fit rule, the Commission did not 
approve a proposed regulatory requirement for Severe Accident 
Management Guidelines over similar industry voluntary 
initiatives because such a requirement was not cost-justified.
    Seeing the light at the end of the tunnel, the Commission 
also directed the staff to provide a plan to us by late October 
to resolve remaining Fukushima action items.
    I appreciate the opportunity to be here today and look 
forward to your questions.
    Mr. Shimkus. Thank you.
    And the Chair now recognizes Commissioner Baran. Welcome, 
and you are recognized for 2 minutes.

                    STATEMENT OF JEFF BARAN

    Mr. Baran. Thank you, Mr. Chairman. Chairman Shimkus, 
Ranking Member Tonko, and members of the subcommittees, thank 
you for the opportunity to testify today. It is a real pleasure 
to be back in this hearing room, this time with my fellow 
Commissioners, to discuss NRC's work.
    First and foremost, NRC is focused on our mission of 
protecting public health and safety. Yet the agency faces a 
different environment than what was expected just a few years 
ago when substantial new reactor construction was anticipated 
and no licensees had yet announced plans to shut down any 
reactors.
    To meet our responsibilities now and in the future, we need 
to enhance the efficiency, effectiveness, and agility of the 
agency. Toward this end, the Commission has approved 
implementing a number of the Project AIM recommendations. This 
is a critical effort for NRC that will continue to require 
significant Commission and staff attention in the coming months 
and years. While we take steps to increase the agency's 
efficiency and agility, we need to ensure that NRC also 
maintains its focus on its ongoing safety work.
    Currently, five new reactors are being built in the United 
States, and five reactors recently ceased operations and are 
entering decommissioning. At the construction sites, NRC is 
conducting oversight to ensure that the new plants are built 
safely and meet regulatory requirements. Meanwhile, the NRC 
staff is beginning their rulemaking to take a fresh look at a 
number of decommissioning issues.
    NRC continues to address post-Fukushima safety enhancements 
and lessons learned. Progress has been made in several areas, 
but we recognize that more work remains to be done. NRC also is 
responsible for having an efficient and effective licensing 
process for new designs and facilities. While NRC continues its 
work on pending applications for new reactors, we need to be 
ready to accept and review applications submitted for new 
technologies. NRC is already reviewing an application for a new 
production facility for medical isotopes and anticipates 
additional applications of this type in the future. We also, as 
Chairman Burns mentioned, are expecting to receive the first 
application for a small modular reactor design in late 2016.
    In closing, I recognize that our congressional oversight 
committees are more interested than ever in NRC's mission and 
the way we are carrying out that mission. I firmly believe that 
NRC can provide Congress with the information it needs to 
perform its oversight duties while preserving the independence 
that is essential to accomplishing our safety and security 
mission.
    Thank you, and I look forward to your questions.
    Mr. Shimkus. Thank you very much, and I will now recognize 
myself 5 minutes for starting the questioning. So here we go.
    On August 25, 2015, the Commission released the votes 
concerning the cumulative effect of regulation process 
enhancement and risk prioritization initiative. From a review 
of the votes, it appears that Commissioners Svinicki and 
Ostendorff voted to approve staff option one, which is the 
continuation of NRC efforts to address the cumulative effects 
of regulation. On the other hand, Chairman Burns and 
Commissioner Baran approved one aspect of staff option two, 
which is to allow licensees to request compliance schedule 
changes using a risk prioritization methodology.
    Chairman Burns, with the vote split as it was in this 
manner, can you help the committee understand how the NRC staff 
will proceed in this manner? What exactly has the staff been 
directed to do?
    Mr. Burns. Certainly, Mr. Chairman. Essentially, the staff 
will continue, and that was part of the instruction that we 
gave in our staff requirements memo, our direction to the 
staff, that it should continue the ongoing efforts with respect 
to the cumulative effects of regulation. And I think that--in 
simplest terms, that is the outcome. This was not an effort to 
sort of draw back the staff, but I think there was a difference 
of view as to the value added of one of the suggested options 
that the staff gave us.
    Mr. Shimkus. Thank you.
    Commissioner Ostendorff, in your vote, you support a 
status-quo approach and emphasize that the NRC staff can 
already apply risk-informed decision making in reviewing 
licensee exemption requests, and that risk insight should be 
considered through existing agency processes. Do you believe 
current NRC regulations and guidance provide adequate risk 
prioritization authorities for the staff? And are there other 
improvements that could be made to ensure that the focus of NRC 
work remains on safety-significant actions?
    Mr. Ostendorff. Yes, sir. I believe, Chairman Shimkus, that 
the staff does have existing authority to use risk insights in 
making decisions. In particular, with respect to the timing of 
completion of individual nuclear power plant compliance with 
various requirements. And though there was a 2/2 split on the 
vote, I would say there is a lot of consensus among the four of 
us, if I can just add my personal view here, and that we were 
somewhat hesitant, Commissioner Svinicki and I, to look at 
adding an additional bureaucratic step to the process that we 
don't think was necessarily needed.
    Mr. Shimkus. Great. Thank you.
    Chairman Burns, what will the next steps procedurally be 
when the Commission receives the staff paper expected in 
October concerning the remaining post-Fukushima Tier 2 and Tier 
3 activities? Will the Commission close out any of these?
    Mr. Burns. I think we have to wait to see what the paper 
says. But in requesting that paper, I think you can--from my 
sense, at least, it sort of foreshadows. I think the Commission 
is interested in seeing what do we have left with respect to 
the Tier 2 and Tier 3, and are we at a point where we can make 
the judgment about value added, if any, of pursuing some of 
those options. So I would expect the Commission to give careful 
consideration to what the staff puts before us in terms of 
looking at a path forward.
    Mr. Shimkus. Thank you.
    The Commission is currently developing its fiscal year 2017 
budget request. As you all know, the courts directed the NRC to 
resume consideration to fulfill its statutory obligation to 
review the Yucca Mountain license application. You have 
previously stated the current plan activities will use the 
remaining available funding for Yucca Mountain and need 
approximately $330 million to complete the license.
    I would like to ask each of you individually for a simple 
yes-or-no answer. Will you support requesting funding in the 
NRC's budget to continue review of the Yucca Mountain license 
application?
    Mr. Burns. For me, no, not in the absence of other 
indication that the agency, the Department of Energy, would 
also be going forward with it.
    Mr. Shimkus. OK. Commissioner Svinicki?
    Ms. Svinicki. Yes, consistent with my previous votes.
    Mr. Shimkus. Commissioner Ostendorff?
    Mr. Ostendorff. Yes, consistent with my previous votes.
    Mr. Shimkus. Commissioner Baran?
    Mr. Baran. No. I don't support requesting funding because 
as a practical matter, I don't see how the adjudicatory process 
at NRC could work if the Department of Energy does not support 
its own efforts.
    Mr. Shimkus. But we do all agree that the Nuclear Waste 
Policy Act is the law of the land, which states that the long-
term repository in the statute is to find this Yucca Mountain. 
Correct?
    Chairman Burns?
    Mr. Burns. The Waste Policy Act identifies Yucca Mountain 
as the one for evaluation.
    Mr. Shimkus. Thank you.
    Commissioner Svinicki?
    Ms. Svinicki. Yes. It is the law until modified or changed.
    Mr. Shimkus. Commissioner Ostendorff?
    Mr. Ostendorff. Yes.
    Mr. Shimkus. And Commissioner Baran?
    Mr. Baran. Yes.
    Mr. Shimkus. I only have 12 seconds left. I will yield back 
my time, and yield to the ranking member, Mr. Tonko, for 5 
minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Commissioner Baran, I believe we agree with each other that 
safety at nuclear plants is of paramount importance. I want to 
ask you about the way in which our changing climate affects 
safety and operations at nuclear power plants.
    In July, the National Oceanic and Atmospheric 
Administration confirmed that 2014 was the hottest year on 
record. The world experienced record high surface temperatures, 
ocean temperatures, and continued sea level rise all in 2014. A 
number of areas in our country are experiencing prolonged 
severe drought conditions, and since greenhouse gas emissions 
continue to rise, these trends are likely to continue or worsen 
going forward.
    So it is not surprising that this summer, the Pilgrim 
nuclear power plant in Massachusetts was forced to shut down 
because its cooling water supply was too hot. The NRC license 
for Pilgrim requires that the intake water be less than 75 
degrees and that the discharge water not exceed 102 degrees. 
The intake water was above 75 degrees and the discharge water 
was at 101.2. Also, this is not the first time that the water 
there has risen above those permitted levels. It happened twice 
in 2013 as well. And the Pilgrim facility is not the only one 
to have experienced this problem in recent years. So I ask: 
What exactly happened at Pilgrim and should we expect that it 
could happen again?
    Mr. Baran. Well, thank you for the question. I think you 
articulated this particular event very well. We have seen a 
number of plants temporarily shut down, reduce power, or seek 
regulatory exemptions when their cooling water supplies either 
got too warm or were insufficient. And we have seen several 
instances of that over the last several years, as you 
mentioned, at a number of different plants. Currently, those 
issues are evaluated on a case-by-case basis. So the technical 
specifications ofeach of those plants, as you indicated, 
indicate the temperatures that are acceptable for cooling water 
intake and discharge, and the plants have got to meet those 
technical specifications.
    If they can't because the wateris too hot or there isn't 
enough of it, they are going to scale back power, they are 
going to shut down, or they are going to come to the NRC and 
say. ``We think it is safe to operate a little bit warmer than 
that with the water'' and seek an exemption. And then we at the 
NRC, the staff, would look at that exemption request on a case-
by-case basis.
    Mr. Tonko. So the plants are given a 30-year license, and 
most designs require significant availability of water for the 
cooling process. So what is the NRC doing to ensure that 
proposed plants will have sufficient water and sufficient cool 
water to operate? And, again, spanning over a 30-year plant.
    Mr. Baran. Well, it is an interesting question because, as 
you point out, with the time scales, we could see changes in 
that on climate. You know, another piece of this that I want to 
raise is related to the climate risk of flooding. And so there 
is a lot of analysis being done at NRC right now on that issue 
as a result of the post Fukushima flood hazard re-evaluations. 
Right? So for plants across the country, the current flood 
hazard based on the latest science is being re-evaluated, and 
that is going to include all the latest information of what to 
expect in terms of flooding issues.
    Mr. Tonko. OK. And does the NRC review of a license 
application consider water availability and competition for 
water use within the watershed or coastal zone in the plant's 
proposed location over the 30-year span of the license?
    Mr. Baran. I believe all those issues would be addressed in 
the environmental impact review, environmental impact 
statement.
    Mr. Tonko. And Chairman Burns, and to our other two 
Commissioners, your thoughts on this matter as we look at a 30-
year window that reviews a license review or application, given 
the climate change challenge, what are your thoughts as to how 
we proceed forward?
    Mr. Burns. Well, Mr. Tonko, as I think Commissioner Baran 
said, those issues are taken into account in terms of the 
licensing review, and actually, our licenses are issued 
generally for 40 years--it is a 40-year license that is 
generally issued. So those are looked at whether from--and 
there may be safety as well as environmental aspects to it. 
Part of the licensing of the plant does look at longer term in 
terms of not just operation today, but operation over a period 
of time. So I think those would be taken into account in that 
regard.
    Mr. Tonko. So has there been an adjustment in the thinking 
in the applied science of all of this with the changed data 
compilation that we have understood to be making a statement 
now?
    Mr. Burns. Well, I think what there is, there is an 
evaluation. I would hesitate, and I have to check with the 
staff and we could probably provide you an answer for the 
record with respect to how that has changed. As Commissioner 
Baran says, there are--on occasions, there have been plants 
that may experience the high temperatures in the water source, 
and that license conditions and all deal with that. I don't 
know that we have actually looked at a particular trend or seen 
a particular trend.
    Mr. Tonko. Are existing plants assisting them in any way?
    Mr. Burns. Pardon me?
    Mr. Tonko. Is there any effort to help existing plants to 
adapt to changing water temperature and drought?
    Mr. Burns. Well, I think, again, that what they look at is 
what those parameters are, and there may be an assessment of 
what the margins are in terms of the levels or the temperature 
levels, I would expect.
    Mr. Tonko. Thank you. And I yield back, Mr. Chairman.
    Mr. Shimkus. The gentleman yields back the time.
    The Chair now recognizes the chairman emeritus of the full 
committee, Joe Barton from Texas, for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman.
    What happens to high-level waste at civilian reactors that 
are decommissioned, Mr. Chairman? Mr. Burns?
    Mr. Burns. Currently that waste is stored at the site.
    Mr. Barton. Permanently?
    Mr. Burns. Well, until there is a repository or a 
consolidated storage site to take it to.
    Mr. Barton. OK. I listened to the answers that each of the 
Commissioners gave to Chairman Shimkus' question about Yucca 
Mountain, and, you know, you were all agreeing that it was a 
repository, but you weren't sure if you could put any funding 
for it. Wouldn't it be--and I support Yucca Mountain as a final 
repository. So there is no daylight between Chairman Shimkus 
and myself on that. But I do think that given the status of 
Yucca Mountain or the lack of status, you might say, that it 
might be prudent to consider some sort of an interim storage 
solution.
    Mr. Chairman, each of the Commissioners, what are your 
thoughts about moving forward with interim storage while we 
hash out the final resolution to permanent, given the fact that 
we are beginning to decommission these reactors? And I don't 
think it is a good solution at all to have a high-level nuclear 
waste at a decommissioned civilian reactor site out in the 
country. So what are your thoughts on let's try to figure out a 
way to do interim storage while we hash out permanent storage.
    Mr. Burns. Well, Mr. Barton, the NRC, as you know, is the 
regulatory--is a regulatory body. And what will come before us, 
whether it is an application for the repository Yucca, or 
whether interim storage facilities, we are prepared to look at 
that and make a safety and security judgment on that. We have, 
in the past, we did consider the licensing and approve the 
licensing of an interim storage site which did not go forward, 
the private fuel storage site I believe in Utah, and we have 
had expressions of interest, and we may get an application from 
waste control specialists----
    Mr. Barton. Chairman, you are open to it.
    Mr. Burns. We will do what, as you say, in that area, we 
are prepared to receive an application and consistent with the 
law----
    Mr. Barton. Let's hear the other three Commissioners. Ms. 
Svinicki?
    Ms. Svinicki. Sir, again, as a safety regulator, our 
obligation is to make sure that if there is no alternative and 
this fuel ages in place for very, very long periods of time, 
that we have the safety judgment that it can be safe on the 
sites where it is located right now. So as a Commissioner, that 
is our singular focus, is on whether or not it can be safely 
stored in the absence of other national----
    Mr. Barton. You all are very good at not answering 
questions.
    Ms. Svinicki. I don't have a----
    Mr. Barton. I just asked a straight question. You know, you 
are citizens. You all are some of the smartest people. You know 
more about nuclear storage than anybody else in the country. I 
am not asking for the Obama position, I am just asking 
generally, if you are open to an interim storage proposal. You 
know, that is all I am asking. So far I am 0 for 2.
    Ms. Svinicki. I am confident that it is safely stored, but 
as a citizen, I think that if it could be stored in fewer 
locations, that would be desirable.
    Mr. Barton. Thank you.
    Mr. Ostendorff. Congressman Barton, I am open to an interim 
storage solution with the caveat that I think our storage 
security right now, those practices at operating as well as 
decommissioned sites, is being done safe and securely now.
    Mr. Barton. OK. Thank you, sir.
    Mr. Baran. Congressman, this is, as you know, ultimately a 
policy question for Congress. The Blue Ribbon Commission 
recommended consolidated interim storage as part of the overall 
solution to the Nation's high-level waste problem. You know, as 
a citizen I could say that interim storage could allow some 
decommissioned reactor sites to close completely. It would 
create a place for the spent fuel that is being kept on site to 
go. And it could reduce the FederalGovernment's liability for 
failure to take title to the waste.
    I just want to mention, though, that currently under the 
Nuclear Waste Policy Act, I think you'd have to have a change 
in the Nuclear Waste Policy Act to allow the Department of 
Energy to take title to that waste, which I think would be 
likely kind of a necessary predicate for interim storage as you 
are imagining it.
    Mr. Barton. Thank you. I will say it is refreshing, Mr. 
Chairman, to hear people say that it is a policy question for 
the Congress to address. That is a good thing. And I appreciate 
their openness to it. With that, I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the gentlelady from California, 
Mrs. Capps, for 5 minutes.
    Mrs. Capps. All right. Thank you.
    Thank you, Mr. Chairman, and I thank you all for your 
testimony today. I represent Diablo Canyon Nuclear Power Plant 
in San Luis Obispo, California. And this is a power plant that 
is owned and operated by PG&E, a key part of our local economy 
supporting hundreds of quality jobs in the area, and also 
supplying efficient clean energy for a lot of people.
    But it also sits very close to two significant earthquake 
faults, the Hosgri Fault was discovered during construction of 
the facility, but the Shoreline Fault was only discovered in 
2008, and it comes within just a few hundred yards of the power 
plant. These faults have raised numerous important safety 
questions, particularly in the wake of the Fukushima disaster. 
These question are particularly important as NRC considers 
PG&E's applications to re-license Diablo Canyon's two reactors 
for an additional 20 years.
    After Fukushima, I urged the NRC and PG&E to suspend this 
process, this renewal process, until seismic risks at Diablo 
were better understood. And consideration of re-licensing was 
suspended soon after, but now the NRC has recently started the 
process.
    So, Chairman Burns, can you provide a status update on the 
license review process, and also outline the next steps and the 
timeline going forward.
    Mr. Burns. Yes, ma'am. There are two primary aspects to the 
review: a safety review and the environmental review required 
by the National Environmental Policy Act. The staff re-
initiated the safety review I think earlier this spring, and 
more recently, published a notice on it with respect to the 
scoping process for the environmental statement. And I think we 
are about at the end of that comment period for the scoping. I 
believe that the timeline for the decisionmaking would be for 
the staff to make a decision by about 2017 with respect to the 
renewal. Now separately, I think as you know, we are also--and 
this comes in part out of post-Fukushima actions, but also, I 
think, the ongoing interests with respect to an evaluation on 
seismic issues--we also have a seismic evaluation underway.
    PG&E provided information like other licensees did with 
respect to the seismic re-analysis, and we have accepted that 
for review, and we are doing that, and I think that is about on 
the same timeframe.
    Mrs. Capps. And would you highlight the steps that NRC is 
taking and has taken to ensure the public participation and 
transparency in this process? As you know, there is a great 
deal of interest in the communities surrounding the Diablo 
Canyon facility.
    Mr. Burns. Yes, ma'am. Again, we have had a number of 
public meetings, some related to the seismic analysis as well 
as license renewal. The license renewal, I believe that there 
is formal intervention in the proceeding, so that public 
hearing process would go on. We have a couple other issues with 
respect to how to treat--I guess the easiest way to say it--how 
to treat PG&E's updates as a seismic review, whether as a legal 
matter that involved a license amendment. I believe that is 
still pending--that issue is still pending.
    So that, again, is a participation process, and I know our 
regional administrator has gone out as just part of the normal 
process of the performance of the plant and will try to engage 
the public.
    Mrs. Capps. Great. Thank you. And after the discovery of 
the Shoreline Fault, I worked with then-State Senator Sam 
Blakeslee, who is a physicist who has studied these things, and 
others, to require additional seismic testing of the areas 
surrounding Diablo Canyon and the State did comply. And the 
results of these studies were released last year by PG&E.
    These studies will be examined by NRC and by an independent 
panel of experts appointed by the State. I know you are aware 
and part of that. I know that there are experts that you have 
as well, but this independent--I have always said, you know, if 
you are going to study something, have an outside third party, 
independent team to come in and assess the seismic risk. Can 
you assure us that no decision regarding re-licensing will be 
made until the State's independent review of the seismic data 
is competed?
    Mr. Burns. Ma'am, my understanding is we are taking into 
account the information developed by all the reviews with 
respect to the seismic characteristics of this site. That is my 
understanding.
    Mrs. Capps. And I know my time is out, but is this going 
to--are these results going to be incorporated into your own 
analysis?
    Mr. Burns. I believe we would take them into account, yes.
    Mrs. Capps. Thank you. I yield back.
    Mr. Shimkus. The gentlelady yields back her time.
    The Chair now recognizes the gentleman from Mississippi, 
Mr. Harper, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman. And thanks to each of 
you for being here, and certainly your agency is charged with a 
very important mission. It is important for the security of our 
country, and it is an agency that must function properly. And I 
would like to ask you a few questions, if I could, Mr. 
Chairman. In 2012, the Advisory Commission on Reactor 
Safeguards recommended the Commission not undertake any 
revisions to the limits of occupational radiation exposure. Are 
you aware of those recommendations?
    Mr. Burns. In general terms I am, yes.
    Mr. Harper. OK. And do you support this recommendation?
    Mr. Burns. Well, I think we would take that recommendation 
and evaluation into account in determining whether to go 
forward with any particular changes to our rules. I think this 
would probably bear mostly on our exposure, or radiation 
protection, rules and in 10 CFR Part 20 of our regulations.
    Mr. Harper. And are you aware that on March 18, the 
Commission published an advanced notice of proposed rulemaking 
to receive public comment on revising these standards?
    Mr. Burns. Yes, I am.
    Mr. Harper. What was the basis for pursuing this rulemaking 
giving the ACRS recommendation?
    Mr. Burns. Well, the rulemaking, as I recall, involves more 
than the question of whether or not occupational standards 
ought to be changed. In part, I think the question is whether 
they ought to be changed in conformance with some international 
recommendations. But there are other aspects, as I recall, of 
the rule that might be considered. And right now at this point, 
the point of the advanced notice is to receive public comment 
to determine whether or not we ought to go forward at all with 
a proposed rule, much less a final rule. And we haven't gotten 
to that point as yet.
    Mr. Harper. So what other aspects may have been considered?
    Mr. Burns. I think there are ways of dose calculation. 
There is some--some, say, probably more administrative type 
changes. I would be happy to provide that for the record. But 
it is more than, as I recall, more than just a question of 
whether or not to reduce the permissible occupational dose.
    Mr. Harper. And I would ask that you provide that 
additional information for the record and the purposes of this 
hearing.
    And if I may ask you also, Chairman Burns, due to the 
Federal Government's inability to open Yucca Mountain, 
utilities currently store spent nuclear fuel in dry cask 
storage at reactor sites in what are known, as you know, 
independent spent fuel storage installations. In 2007, the 
Commission directed that the design basis threat for these 
facilities were adequate and safe. However, there is now an 
effort to impose new security requirements upon licensees which 
will necessitate licensees incurring significant costs and 
require additional safety and training requirements. Has the 
design basis threat changed since 2007?
    Mr. Burns. I am not aware that it has.
    Mr. Harper. So the answer would be no, is what you are 
saying, Mr. Chairman?
    Mr. Burns. I believe so.
    Mr. Harper. OK. And if not, why is the Commission pursuing 
additional safety requirements on dry cask storage facilities?
    Mr. Burns. I presume--and some of my fellow Commissioners 
may have something to say on that--that in looking at it, this 
is in terms of trying to assure that the design basis threat is 
met and that other upgrades that we deem necessary through the 
public comment process.
    Mr. Harper. OK. But it hasn't changed, and so, but now we 
have got these additional safety requirements. Yes, sir, Mr. 
Commissioner.
    Mr. Ostendorff. Congressman Harper, if I may add, the 
design basis threat review did not indicate a change to the 
design basis threat. What we have as an agency, it is called 
implementing guidance, which is used by licensees to execute 
our regulations. So there are clarifying steps taken in that 
guidance. It is my understanding--I was briefed on this just 2 
weeks ago--it is my understanding there is not any ratcheting 
up of standards in this new guidance.
    Mr. Harper. I believe my time is up. I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentlelady from Florida, Congresswoman 
Castor, for 5 minutes.
    Ms. Castor. Thank you, Mr. Chairman. Good morning NRC 
members. Thank you very much for your service to the country 
and for being here this morning.
    In Florida, consumers are still quite angry over--due to 
the fact that they are on the hook for repairs and closeout to 
the Crystal River nuclear plant. This will blow your mind, but 
customers are on the hook for over $3 billion because the 
utility in a repair situation did some things out of the norm 
on their own and, in essence, broke the plant. They sometimes 
refer to it as the ``Humpty Dumpty'' plant.
    As the nuclear plants across the country age, and more of 
these type of repairs have to be done. At Crystal River this 
was the steam generator. I guess it's--one, a former NRC member 
called this a mega screw up. They said something similar about 
San Onofre as well.
    Could you go through right now what is the NRC's role when 
a utility embarks on these type of repairs?
    Mr. Burns. Essentially, our role is an oversight role. We 
may inspect, observe what what changes or, in effect, 
construction type activity at a site. In some respects, we have 
an approval role with respect to issuing amendments to a 
license if that is necessary, because the nature of the repair 
or the change to operation is such that it is beyond the 
current license and it requires a change to the license.
    Ms. Castor. So in a case like Duke Energy and its 
predecessor and Florida Power at Crystal River, when they 
embarked on doing some repair that was out of the norm. At that 
point, does the NRC have oversight? Do you have the ability to 
come and say, you know, what you are doing does not meet the 
current standards there where we--can you say, no, do not 
proceed with that repair, we do not agree?
    Mr. Burns. We have--again, if it is an activity that would 
not be within the scope of their current license, we would have 
a role in terms of reviewing a proposed change before it is 
implemented. But there are many types of activities at a plant 
which are--which can be done within the scope of the license. 
What the licensee is supposed to do is to do an adequate and 
high quality evaluation of the nature of that activity.
    Ms. Castor. Do any of the other members have a comment? 
Yes, sir.
    Mr. Ostendorff. Thank you for the question. I had a chance 
to visit Crystal River back in 2010 when I first joined the 
Commission. What we had here, think of a sphere that is made of 
concrete called containment, and there is a tensioning cable 
that went around the circumference of the sphere. Detentioning 
that cable is part of a maintenance period. There is criticism 
as to the technique that was used to detention this cable, 
resulting in concrete cracks. NRC does not, from a regulatory 
standpoint, go and micromanage exactly how the licensee 
conducts its maintenance. We do make sure that plant is safe to 
start up.
    Ms. Castor. OK. How many nuclear plants are there in the 
U.S. right now?
    Mr. Burns. There are 99 operating plants in the United 
States.
    Ms. Castor. Are there many being built now, new plants?
    Mr. Burns. There are five under construction. One, Watts 
Bar plant, the Tennessee Valley Authority, will probably enter 
operation next year.
    Ms. Castor. And most of the nuclear plants that are in 
existence today were constructed during what time period?
    Mr. Burns. 1980s.
    Ms. Castor. So these are aging plants. And it is likely, 
over time, to meet their useful life that they are going to 
need repairs. Do you feel that the NRC has the capability now? 
I know you said your responsibility is just to--you don't want 
to micromanage, but this is a $3 billion cost to customers in 
Florida. They are on the hook for it, even though it was the 
responsibility of the utility. We have got to do a better job. 
Don't you see any future now with the NRC with these aging 
plants, you have to take a more active role in ensuring that 
the utilities meet a standard of care?
    Mr. Burns. Well, we do take an active role, we have 
rigorous requirements quality assurance in terms of activities, 
in planning for the way activities are undertaken. We have a 
maintenance rule that focuses on equipment in the plant and the 
license--to the extent plants go into license renewal, we focus 
on the aging of components. I think, as Commissioner Ostendorff 
said, at some point, the operation and maintenance of the 
facility is the responsibility of the licensee, they need to 
conduct it in conformance with our safety requirements, and 
that is where it is. I think from my standpoint and the 
Commission's standpoint, we have significant requirements that 
address----
    Ms. Castor. Would you be willing to look into this moving 
forward so that customers can avoid these kind of major costs 
that are passed on to them?
    Mr. Burns. And part of our oversight of plants, we 
certainly will look at the question of maintenance and the 
quality in terms of how operations and maintenance operations 
are conducted.
    Mr. Shimkus. The gentlelady's time has expired. The Chair 
now recognizes the gentleman form Kentucky, Chairman Whitfield, 
for 5 minutes.
    Mr. Whitfield. Thank you very much. On August 3rd, EPA 
finalized its Clean Power Plan under section 111(b) of the 
Clean Air Act. Of course, that regulation has created a lot of 
controversy around the country, and many people think illegal 
lawsuits have been filed. And as you know, EPA arbitrarily 
selected CO<INF>2</INF> emission limits for each State, but 
also, they allow for power upgrades--uprates in that 
regulation.
    And I was just curious if you all, or maybe you, Mr. Burns, 
or anyone else would like to comment, tell me, did EPA actually 
talk to you all about that plan before it was finalized? Did 
anyone from EPA come and discuss this with you before they 
finalized it?
    Mr. Burns. No, not that I am aware of.
    Mr. Whitfield. OK. Now, what is the NRC's normal timeframe 
for reviewing and approving these power uprate requests?
    Mr. Burns. I think it will depend on the complexity of it, 
but I usually think within probably a couple years.
    Mr. Whitfield. Now you all have some pending uprate 
requests before you?
    Mr. Burns. I think we might, but I would have to check for 
the record. It certainly is addressing power uprates and 
reviewing it is something we have done over the years.
    Mr. Whitfield. Have you all given thought whether or not 
you need to adjust or otherwise accelerate your process for 
reviewing and approving these power uprate applications as a 
result of the Clean Power Plan?
    Mr. Burns. No.
    Mr. Whitfield. OK, OK. Well, your Web site says you have 
four pending applications for power uprates. And there is a 
table showing seven expected applications for power uprates. 
And I am--of course, I don't know how many States going to go 
submit their State implementation plans on time or anything 
else. But this is an area is that obviously States are looking 
vigorously for ways to meet the CO<INF>2</INF> standard, or 
limits. And if you can produce more nuclear power, obviously 
that is one way to do it. So I think that certainly is very 
important issue to be focused on.
    Let me ask you another question. We hear a lot about 
modular nuclear power plants, would you give me your--are you 
all taking the applications for modular nuclear plants or is 
that premature, or--I know there are groups that are meeting 
with DOE on a regular basis about modular plants, so what is 
your all's perspective on that?
    Mr. Burns. We do expect an application for a design 
certification for a small modular unit. I think the application 
will be filed in late 2016. And also, the Tennessee Valley 
Authority has indicated it will seek what we call an early site 
permit, basically a site approval, at the Clinch River site, 
the site for a small modular reactor.
    The other thing I would emphasize, Mr. Whitfield, in fact, 
we had a workshop, I guess, last week jointly sponsored with 
the Department of Energy where we are trying to engage the 
community that may be interested in a small modular reactor or 
advanced reactors to assure that when the time comes we are 
prepared in terms of looking at the acceptance criteria and 
things like that. So as I say, we have a couple of things 
coming, coming and then we are trying to make sure we are 
prepared for the longer term.
    Mr. Whitfield. At one time I heard that the Commission was 
not in a position regulatory to deal with these issues. Is that 
accurate, or is that just a wild rumor that I heard?
    Mr. Burns. What I think we are prepared for from the 
licensing process, I am confident we can manage these types of 
applications with the licensing process. What the difference 
is--and these are some of the issues we have been working on 
with DOE--is because some of the technology, the current is 
nonlight water reactor technology, so that is where you want to 
see what the gaps are in terms of the acceptance criteria, 
things like that.
    Department of Energy, in its R&D role, has prepared some 
reports they shared with us, and as I say, we are keeping an 
open dialogue there with them and as well as those who may be 
interested in the industry.
    Mr. Whitfield. Do you want to----
    Mr. Baran. Sure. I just wanted to add, there are some 
differences between small modular reactors and larger 
traditional reactors, and those differences raise some 
technical and potentially some policy issues that the agency is 
actively working through. There are questions about control 
room staffing, the size of emergency planning zones, how our 
annual fee is going to work. And so the Commission, actually, 
briefly addressed a couple of those issues with rulemaking and 
looking at the fee question, and the emergency planning 
question, and the staff interacting with the Commission are 
looking at these other issues as well, so that there is good 
regulatory certainty for potential applicants about what is the 
path forward to get a license if you have a small modular 
reactor design.
    Mr. Shimkus. The gentleman's time has expired. The Chair 
now recognizes the gentleman from California, Mr. McNerney for 
5 minutes.
    Mr. McNerney. I want to congratulate Mr. Baran on your 
confirmation. I wouldn't want to go through that process 
myself.
    Mr. Chairman, is the NRC capable of managing its 
significant growth in nuclear power if the Nation should decide 
to go down that path?
    Mr. Burns. I think we are capable of managing that. One of 
the issues we are dealing with today is trying to look out 5 
years, this is the Project AIM 2020 from the standpoint of 
looking at what do we need to prepare for as well as looking at 
where we are today. And because we grew a lot in the last 
decade, we have, in terms of on our plate, a fewer number of 
reactor applications. We had the discussion with Mr. Whitfield. 
One of my concerns is that we are prepared if we get additional 
applications, not only for small modular reactors or advanced 
reactors----
    Mr. McNerney. You get upgrades, you get new power plants, 
you get small modular reactors. You get a whole slew of things.
    Mr. Burns. Yes. I think part of what we want do and what we 
are trying to look at through our Project AIM at positioning 
ourselves that we maintain the technical expertise that we need 
in those areas.
    Mr. McNerney. Commissioner Svinicki, could you explain 
Project AIM briefly please?
    Ms. Svinicki. Well, as Ranking Member Tonko and a number of 
members of the subcommittees addressed in their opening 
statements, we have seen a very dynamic electricity industry 
over the last few years. As a large organization, we lag a 
little bit behind in adjusting as the regulator to the changes 
to the regulated industry. So we find ourselves right now at 
resourcing and staffing levels, and an organization not always 
aligned to the regulatory work that is in front of us. So 
Project AIM is a whole set of initiatives looking at bringing, 
simply put--our H.R. Director said we need to move expertise in 
alignment with the work in front of us and look at being able 
to be efficient and effective, but maintain the expertise to be 
agile, because based on the Clean Power Plan and other things, 
it is very difficult for us to forecast 5 years from now or 10 
years from now exactly how we need to be staffed and resourced, 
but we are going to work on that efficiency and agility piece.
    Mr. McNerney. Thank you. Commissioner Baran, is there a 
cumulative effect of regulation on the new licensing process? 
In other words, is there an effect that would require licensing 
to take another 5 years or something like that?
    Mr. Baran. Well, we have several processes in place to look 
at cumulative effects of regulation issues. One of the things 
we do, for example, and these were instituted prior to my 
arrival on the Commission. When a proposed rule for a new 
requirement now goes out at NRC, that is accompanied at that 
time with proposed implementation guidance, so that licensees 
have a very clear sense of what is likely going to be required 
of them. That makes it much easier for them to comment, it also 
makes it easier for them to plan, to provide us with cost 
estimates about what it might cost to comply. So that is one of 
the things that we are doing already on an ongoing basis.
    You know, licensing of new reactors and new reactor 
designs, in some cases, it has taken a number of years. 
Typically, in recent years, it has not been the fastest 
process, and there are a variety of reasons for that. From my 
point of view, and if I am looking toward a small modular 
reactor being an application that we would expect next year, 
what we, I think, as an agency are emphasizing to applicants is 
you need to submit a high-quality application, and then we need 
to be ready for it, and both sides really have to bring their A 
game to it if we are going to get it done in a reasonable 
timeframe.
    Part of that is also thinking ahead, as I was mentioning to 
Chairman Whitfield, what are the potential issues and the 
potential challenges that we would need to resolve on a 
particular license or type of application? Let's get that going 
well in advance so that when that application actually comes 
in, a lot of work has already been done to move us toward a 
timely result.
    Mr. McNerney. Thank you. Commissioner Baran, what would it 
take to get the Yucca Mountain project to move forward?
    Mr. Baran. You are talking about for NRC's review of it?
    Mr. McNerney. To get the project moving forward.
    Mr. Baran. For NRC's review of it, the estimate that the 
staff came up with for the cost of our adjudicatory proceeding 
is somewhere in the range of 300 to 350 million. That would be, 
I believe, the largest adjudication.
    Mr. McNerney. This isn't just about money, the economic 
project. There are other impediments in the way.
    Mr. Baran. Well, as I mentioned earlier, and the reason I 
haven't supported asking for that money is, you have to have an 
applicant that's committed to their application. And so, you 
are looking at years of an adversarial trial-like process to 
get that license. I believe it's currently 288 contentions or 
claims. That number could go up if the adjudication resumed. 
And if you don't have an applicant that wants to defend its own 
application, ultimately, they have the burden of demonstrating 
that their application is going to be safe, I just don't see 
how that process works.
    So, you'd have to have an engaged applicant. DOE would need 
money to do that, we would need money to do that. There are a 
lot of things you need to make the process work.
    Mr. Shimkus. The gentleman's time is expired. The Chair now 
recognizes the gentleman from Texas, Mr. Olson, for 5 minutes.
    Mr. Olson. I thank the Chair. Welcome to our witnesses. 
Nuclear power is an important part of America's energy 
portfolio. Not far from my home is the south Texas project in 
Bay City. It is a stable and reliable source of power to the 
entire Gulf Coast, and a cornerstone of our grid. Either one 
came online August 25th of 1988 to June 19th of 1989. The 
electricity prepared provides 1,200 good-paying jobs for our 
local economy, and brings prospects for the next generation of 
science and engineering students. As I have mentioned to this 
committee before, local schools, like Wharton County Junior 
College led by President Betty McCrohan, have stepped up to 
train the next generation of nuclear power workers.
    As older employees retire from the plant, where they have 
worked for decades, since it opened in late 1980s, training 
like this is more critical than ever to fill these gaps. 
Nationwide nuclear power is critical, as one continues to shut 
down based on power, nuclear helps keep our grid running.
    We love wind in Texas. We are number 1, but you can't run 
an entire grid on wind.
    My first questions are for Chairman Burns. We are not 
building nuclear plants these days, new ones, the applications 
for unit 3 and 4, NRC--at NRC for south Texas were filed on 
September 20 of 2007. They are going nowhere quickly. So older 
plants remain incredibly important.
    In the coming years a number of these plants will begin the 
process of asking for another extension beyond the typical 30-
year extension. How the Commission approached these requests to 
extend the life of these older plants? What sort of time line 
does NRC use to sort out these issues?
    Mr. Burns. Thank you for the question. I had the pleasure 
of going to South Texas site a few months ago and visiting down 
there. I know what the support--I talked to some folks down 
there in terms of the support in the community and the 
importance with which they see it.
    Our license renewal rule essentially provides for initially 
a 20-year life extension. We are also in the process of 
considering, and there has been research done--again, this is 
something that the Department of Energy has also supported--
that looks at the potential for extension up to 80 years. That 
is still on the horizon. We may hear something from industry 
within the next few years, but we are trying to position 
ourselves in terms of the research and all on that. But we have 
a well-tested licensing renewal process. Now, about 75 of the 
99 units currently in operation, I believe, have received 
renewed licenses under that process.
    And we have others either in the review process or expect 
to come in the review. So I think we are well-equipped to 
handle and have demonstrated the effectiveness of the license 
renewal process.
    Mr. Olson. Question for Ms. Svinicki and Commissioner 
Ostendorff: If you could pick one change of law at the NRC that 
would put that in place immediately--you are the all-powerful 
king or queen--what would that be? Ms. Svinicki? Mr. 
Ostendorff? You are the king, what would you want to do? What 
would you want to change, one change?
    Mr. Ostendorff. Well, that is a great question. I wish I 
had a pithy answer to respond to you, Congressman. I would like 
to give it some thought so I can get back to you.
    Mr. Olson. Ma'am any ideas through you head? You are the 
queen for a day.
    Ms. Svinicki. I would do the same. I think Commissioner 
Ostendorff and I were both also congressional staff in earlier 
parts of our career, so I put aside my thought of changing law, 
and now I just focus on complying with it.
    Mr. Olson. OK. Chairman Burns, if this is not the 
Commissioners' ideas, what would you change as a citizen, any 
ideas? No?
    Mr. Burns. One of the issues--and I know we, not struggle 
with, but have had a lot of attention to, and I will venture a 
guess--is that there is a provision that applies with respect 
to power reactors on foreign ownership, domination and control. 
And while that has, I think, a role, I think there is actually 
greater flexibility in the materials area. This has been an 
interesting area for investment and all. And it is something, 
to some extent, it is a little bit out of what I call the 
normal wheelhouse of the NRC.
    So, I wondered if that is--but that is not a fully gelled 
thought, maybe, but that is something I think about. And the 
reason I think about that is because I remember--I think it may 
have been in the Energy Policy Act--for example, originally we 
had antitrust responsibilities which were also being done by 
the Federal Trade Commission and Department of Justice, and 
that was something that, I think, that we were relieved from. 
Because again, if we are focused on safety and security, that 
is where we want to be focused. So that is just sort of a 
random idea.
    Mr. Olson. Well, thank you. I am out of time.
    Mr. Shimkus. Gentleman's time is well expired.
    Mr. Olson. You have the crown on. For the record, what you 
want to do, for the record, please, sir.
    Mr. Baran. I am a small ``r'' republican. I leave it to you 
all to write the laws and we will implement them.
    Mr. Olson. I yield back. Thank you.
    Mr. Shimkus. The Chair now recognizes the ranking member of 
the full committee, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman. Commissioner Baran, 
my questions are to you. I understand that the nuclear industry 
developed Severe Accident Management Guidelines, or SAMGs, in 
1996 to respond to severe events involving multiple failures of 
safety equipment in nuclear plants. So my question is, I have 
four, but first: What are the benefits of emergency planning at 
nuclear power plant facilities? And how can the focus on safety 
protect the public and prevent the massive costs associated 
with the Fukushima-style disaster?
    Mr. Baran. Well, I think everyone agrees, and I don't think 
there is any question, that Severe Accident Management 
Guidelines, that kind of emergency planning, is crucial and 
really valuable. The debate we had recently was about--or, the 
question we had presented to us recently is, Should we make 
that a requirement? It has been a voluntary initiative, as you 
mentioned, it went into effect basically 1998. It wasn't really 
inspected by NRC from 2000 on until after Fukushima. I think 
you could ask industry, you could ask anyone who is a player in 
this area, and they would tell you these are really important 
planning tools, and SAMGs are a very good idea you want to have 
at a plant.
    Mr. Pallone. Well, can I ask you second, have these 
requirements led to increased plant safety or increased 
protection for public health and safety?
    Mr. Baran. Yes, I think everyone views the Severe Accident 
Management Guidelines as an enhancement to safety. And the 
question is, really, Should they be enforceable? My view is 
that they should be. The experience that we had in that period 
where it was a--it still is a volunteer initiative--where it 
was a volunteer initiative, we hadn't inspected; after 
Fukushima, NRC inspectors went out to plants. And for the first 
time in maybe 12 years, they had looked at what was the status 
of these voluntary SAMGs. And it was pretty troubling what they 
found. There were SAMGs that were outdated, hadn't been updated 
in years. There were emergency responders that weren't trained 
on the SAMGs. And as a result of that, the near-term task force 
after Fukushima and NRC staff both recommended making that a 
requirement so that it would be enforceable. I agree with that 
view.
    Mr. Pallone. OK. So obviously there they are still 
voluntary, you answered that question.
    Mr. Baran. Yes, yes.
    Mr. Pallone. Can the Commission make them mandatory? Are 
you moving in that direction? Do you have that power?
    Mr. Baran. We could, we are not moving in that direction. 
There was a recent Commission vote on a proposed rule that 
covered, more broadly, a number of areas that Commissioner 
Ostendorff referred to earlier post-Fukushima mitigation 
issues. So it is a larger safety rule. The staff recommended 
that in that proposal, we include a proposed requirement, for 
the first time, for Severe Accident Management Guidelines. And 
I supported including that as a requirement. I was the minority 
on that. The majority felt we should not include it. And from 
my point of view, that is a mistake. Everyone agrees you get a 
safety benefit from it, and enforceability has a lot of value. 
And when we had a Commission meeting on this, a public 
Commission meeting, I asked industry representatives, Well, is 
this going to be a burdensome thing to require this? The answer 
we got back was ``Well, no, we are doing this voluntarily 
now.'' It will not be a burdensome cost, it is little or no 
additional cost to make it enforceable. From my point of view, 
when you have a substantial safety enhancement and you have 
something that is not burdensome, that is something we should 
include in a proposed rule and the public should have an 
opportunity to comment on that.
    Mr. Pallone. All right. Well, I appreciate that. Let me 
just ask one more thing. It may be the right answer. After 
Fukushima, was there another review of these SAMGs and has that 
made a difference in terms of updating the guidelines or 
training personnel in response to Fukushima?
    Mr. Baran. Yes, that was the review I referenced. After 
Fukushima, there was an inspection of the status of the SAMGs 
in all the plants across the country. And it was spotty, so 
they--every plant had SAMGs, and the overall conclusion from 
the staff was that they thought they would be effective. But 
recently, when looked at the question should they be made 
enforceable, we asked the staff, well, are you confident that 
we would have effective SAMGs at every plant of the country if 
we ever needed them if it remains a voluntary initiative? And 
the answer I got back was no, we are not confident, based on 
the history that they would be there when you needed them. For 
me, that means it should be a requirement, or we should at 
least propose it as a requirement and the public should have an 
opportunity, all stakeholders should have an opportunity to 
comment on it.
    Mr. Pallone. Thank you very much.
    Mr. Shimkus. The gentleman's time has expired. The Chair 
recognizes the gentleman from Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Well, thank you very much, Mr. Chairman and 
Chairman, Commissioners, thanks very much for being with us 
today. Appreciate your testimony.
    And over the work period, I was at Davis-Besse, which is 
really a stone's throw from my district. And when I was there, 
I saw firsthand some of the really significant investments that 
have been made or are making--post Fukushima. And this mass 
construction taking was the emergency water feed system, where 
I learned about how nuclear facilities are working with the NRC 
to continue their safe operations. I mean, there is a lot of 
investment going on out there.
    But if I could, Mr. Chairman, if I could start with you. If 
I could ask this question: It has been touched on a little bit 
by Chairman Whitfield. But I would like to approach a little 
different area. You stated that last week that the NRC and 
Department of Energy had a 2-day public workshop with 
stakeholders for options for increased efficiency from both a 
technical and regulatory perspective and the safe development 
and deployment of innovative reactor technology.
    I know that Chairman Whitfield talked to you mainly on this 
small modular reactor. I would like to ask is more how can the 
Commission establish a regulatory and licensing framework for 
advanced technologies that reasonably assures private industry 
a pathway towards commercial development? And I know that you 
talked about, in regards to Chairman Whitfield saying that you 
could manage it, and also--but if you could really get into the 
advanced technologies and how you could get some detail in that 
place?
    Mr. Burns. Certainly. Again, what we tried to do with the 
workshop, which we jointly sponsored with the Department of 
Energy, was to engage those who are thinking about potentially 
pursuing the advanced technology. Again, what I try to say is, 
I think the basic ``how to license'' and the framework we have 
for licensing, that is essentially sound. Whether you use the 
one-step licensing, which the larger evolutionary reactors, 
such as the AP 1000 being built that some are using, or you use 
the older two-step-type licensing.
    I think a couple of things, one of the things I think the 
staff heard during the conference was whether there are ways of 
perhaps, maybe stepwise, looking at systems and basically 
getting to the point you are not so much issuing a license 
because you issued a license for the entire facility, but you 
get to some sort of a design approval or a stepwise process. I 
think that is something I think the staff wants to explore some 
more.
    The other piece of this is, too--and this is the report I 
alluded to that came in from the Department of Energy at the 
beginning of this year to us--is to make sure that our general 
design criteria, also acceptance criteria for the technology, 
are they really in sync with what we are going to see with the 
new technology?
    The general design criteria have been there for many years. 
They have served us well in terms of light-water technology, 
but looking at how we may need to adjust that, so we are 
continuing to engage with that.
    Mr. Latta. Let me follow up with that, because this is 
important for a lot of folks out there is that how can the NRC 
establish the organization be responsive to the potential 
applicants, but not forcing the existing licensees to fund 
those costs as part of the annual fee assessment?
    Mr. Burns. I think you put your finger on it in terms of we 
are, I think as you know, we are basically a fee agency. Ninety 
percent of our appropriation is recovered in fees, primarily 
from the industry and the operating fleet.
    There are probably ways, I think this is probably a 
discussion with the Department of Energy in terms of whether, 
again, because in their role in research and development, 
whether there are ways in terms of providing assistance that 
way. I know the DOE has done some of that.
    Mr. Latta. I saw Commissioner Ostendorff, you were shaking 
your head on that, would you like to respond to that?
    Mr. Ostendorff. I would agree with the Chairman's comments, 
I would just add that there are other technologies out there 
that we have not received license applications for or design 
certifications for, pebble bed reactors, molten salt, sodium-
based cooling systems. And these are technical areas that we 
might have, at best, three or four people in the agency that 
have some knowledge of these new technologies. And as we are 
going forward looking at our fee-based rule requirements under 
law, it is very difficult for us to justify, under our current 
fee recovery arrangements, spending dollars for expertise that 
is not going to benefit an existing or likely applicant in the 
near term.
    Mr. Shimkus. The gentleman's time has expired.
    Mr. Latta. My time has expired, Mr. Chairman. I yield back.
    Mr. Shimkus. The Chair recognizes the gentleman from Texas, 
Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. Again, like my 
colleague from Texas, I wasn't happy that south Texas project 
didn't expand. Of course, the market conditions changed with 
Fukushima and Tokyo power, but I appreciate our Regulatory 
Commission being here today.
    Chairman Burns, with regards to Yucca Mountain, the NRC 
safety evaluation report recommended should not authorize 
construction because of certain land and water ice. I have been 
to Yucca Mountain a couple years ago with our subcommittee, and 
it is in the middle of Federal land owned by DOD and DOE. 
Exactly what are the land and water rights requirements that 
the safety evaluation report references?
    Mr. Burns. The specifics, Mr. Green, unfortunately, I don't 
know. We can certainly provide for the record, but they would 
be, I think, outlined in the safety evaluation report. I 
presume that they have do with State or local rights. And 
again, that is what the staff is identifying, they are 
identifying a legal constraint.
    Mr. Green. The Federal Government doesn't own the water 
rights to that land?
    Mr. Burns. Again, I can't speak specifically to it. I think 
the State owns the water.
    Mr. Green. I can see the water there, but I can see the----
    Has the NRC determined the funding level necessary to 
complete the application, including adjudicatory hearing on 
contested issues? If so, what is the amount that would finish 
the application?
    Mr. Burns. Again, our estimate would be somewhere on the 
order of 300 to 330 million to complete the review, which would 
be the adjudication and the outcome of any steps that would be 
necessary at the outcome of the adjudication.
    Mr. Green. Is that money available?
    Mr. Burns. It has not been appropriated to the NRC.
    Mr. Green. If that was appropriated, how long do you think 
it would take for the NRC to complete proceedings, including 
adjudicatory?
    Mr. Burns. I don't have a firm guess. You would have to 
sort of reengage the participants. Again, if I am looking at 
what the original conception was under the Nuclear Waste Policy 
Act, I would imagine it is a 3- to 4-year period, but that is a 
guess.
    Mr. Shimkus. Would the gentleman yield for one second? It 
would be helpful if the NRC would place that in their budget 
request so then we would get it authorized and then we would 
get it appropriated. I yield back.
    Mr. Green. Thank you. Obviously I support long-term interim 
storage--I mean, long-term storage, now would go to interim 
storage.
    This year the NRC received two letters of intent to file 
for consolidated energy storage facility, including one in 
Andrews County, Texas, can you outline what the NRC's current 
regulation for authorizing an interim storage facility?
    Mr. Burns. Yes, the regulations that we have in place, 
particularly that apply to that type of facility, they would be 
applied. And as I indicated in answering an earlier question, 
we actually have gone through a licensing process for a 
similar-type facility some years ago to private fuel storage 
which did not go into operation. So the basic licensing safety 
framework, if you will, is there.
    Mr. Green. Under current regs, I assume a public hearing 
would be required?
    Mr. Burns. It is not required, but an opportunity would be 
noticed.
    Mr. Green. Would the NRC request funds for fiscal year 2017 
for the review of consolidated interim storage applications?
    Mr. Burns. It is not in the budget that was submitted, 
because basically when we got the letters of intent, that was 
after the budget was in the process. What we would do is, I 
think, we would look at our resources and reprioritize within--
to the extent it would begin in 2017.
    Mr. Green. Well----
    Mr. Burns. And if we were going on beyond--I mean, part of 
this is a problem of timing, in terms of the development of 
reviewed process of the budget was well underway before we had 
the applications come in, but within our resources, we would 
look and----
    Mr. Green. Court decision--in light of the court decision, 
I would hope the NRC would move not only on long term, but also 
interim storage as required in the funding. First, you have to 
ask for it to get it. Although maybe we could do that; but, 
again, we are not the Appropriations Committee. But, Mr. 
Chairman, I know I am out of time, but it is a frustration we 
haven't been able to move to either interim storage or, 
obviously, even long-term storage. Thank you.
    Mr. Shimkus. I thank my colleague. The Chair recognizes the 
gentleman from West Virginia, Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. During the recently 
concluded Iranian nuclear deal, France and Russia both made 
offers that if the Iranian government would suspend its nuclear 
enrichment program, that they would provide them with reactor 
rods, reactor fuel, and would process the spent fuel rods. An 
interesting concept. Were you all approached from the NRC, the 
American side that said--also say whether or not that--that was 
an alternative to the Iranians continuing their enrichment 
program? Were you approached to see whether or not America 
would join in that?
    Mr. Burns. No, we were not.
    Mr. McKinley. Really? Interesting. Mr. Chairman, you also 
said that you went down to the nuclear facility down in Texas. 
I guess out of the 3,700 employees you have, probably numbers 
of times, are out inspecting nuclear facilities; is that 
correct?
    Mr. Burns. I am sorry, I couldn't hear your question.
    Mr. McKinley. I am assuming of the 3,700 employees or so 
you have or whatever that final number is today, that some of 
your spending time inspecting nuclear facilities; is that 
correct?
    Mr. Burns. That is correct. We have resident inspectors.
    Mr. McKinley. So my question is, what if you weren't able 
do that, would you be comfortable in having the perspective 
utility companies just give you a report, or would you insist 
on doing an inspection yourself?
    Mr. Burns. No, I think we would be uncomfortable. I think 
inspection as well as reporting is an important part of 
oversight.
    Mr. McKinley. I would think so. So should we be 
uncomfortable with this agreement that the Iranians are going 
to provide us with their own inspection of their nuclear 
facilities and prevent western nations or others to come in and 
do this inspection? Should we be uncomfortable with that?
    Mr. Burns. I think that is something--as the NRC, we are 
not involved in the issues.
    Mr. McKinley. I can hear the music starting and the dance 
is starting. I want to know, you wouldn't be comfortable with 
it in America, so why should we be comfortable with it in Iran? 
And I think it is pretty simple you set forth. Thank you on 
that.
    My last question to you is, has to do with this archaic 
process of burying our waste. I am an engineer, a licensed 
engineer, and I have problems with municipal waste, where we 
are burying it; we are burying batteries and motor fuel; we 
have the issue of carbon sequestration, we are burying that 
into the ground; medical wastes are being thrown into the 
ground; and now we have coal slurry that potentially is causing 
some issues.
    Why are we perpetuating this idea with our spent fuel rods 
of having to program where we are going to bury that way. I 
know France is recycling their material. And everyone says it 
is very expensive and the French acknowledge that it is, but 
isn't that better than burying our material and telling our 
grandchildren its your problem to deal with later on?
    Mr. Burns. The question--President Reagan in the 1980s 
lifted the ban on reprocessing of nuclear waste at the time, 
but basically said it would have to be a commercial enterprise.
    Mr. McKinley. Is France wrong?
    Mr. Burns. I am not saying France is right or wrong, but 
France, in terms of the economy and its structure, is very much 
different than the United States.
    Mr. McKinley. But if we subsidized our alternative fuel so 
dramatically, why aren't we doing that with spent fuel rods 
instead of burying it and allowing the next generation to have 
to deal with it?
    Mr. Burns. I think that is a policy choice. It can be 
safely disposed of. There is a possibility of reprocessing, but 
it, again, that is a choice outside the purview of the NRC.
    Mr. McKinley. Thank you very much. I yield back my time.
    Mr. Shimkus. The gentleman's time has expired. The word is 
retrievable, not buried, just to help out here.
    Chair recognizes the gentleman from Vermont, Mr. Welch.
    Mr. Welch. Thank you very much. I am delighted to be here 
with the Commission. As you may know, I represent the State of 
Vermont, and this is my opportunity on behalf of the Vermonters 
I represent to talk about a couple of issues related to the 
decommissioning of Vermont Yankee, an Entergy plant.
    A little bit of background, as I understand it, this is the 
first merchant plant that is going through the decommissioning 
process. It is long, involved, expensive, and, obviously, very 
consequential to Vermont. It is going to cost, by current 
estimates, $1.42 billion. And that is going to take decades to 
be accomplished.
    But there are two recurring issues that I think it is 
timely to discuss with you, not just because of the 
implications they have for Vermont, but for this process going 
forward of decommissioning plants. It is new and you are going 
to have to make some critical decisions.
    The two issues that have emerged in Vermont are one, public 
participation and how extensive will that be or how limited 
will it be.
    And then second, are the decisions that your Commission 
must make about the use of the decommissioning fund. There is 
an inherent conflict, to some extent, between the merchant 
generator, in this case, Entergy, which want to put as many 
costs on that as possible, and the community that wants strict 
limitations related to managing the radioactive contamination 
situation.
    Just a couple of things, and on the question of local 
community involvement, the nuclear industry is involved through 
the NEI, as you know. And recently, the Commission had a 
teleconference that lasted several hours, about 2 \1/2\ hours 
were devoted to hearing from NEI, which was essentially 
Entergy, and only 20 minutes for the Vermont Public Service 
Department. We have got a Governor who is very engaged from our 
public service department, very engaged. And, of course, this 
community in southern Vermont, it is critical what is going to 
happen.
    So the question I have for you, I want to finish with my 
statement here, is how extensive are you going to allow 
legitimate public representatives to have a seat at the table? 
Right now, it appears to be almost limited to the public 
comment period, and I am sure you read the comments and take 
those into account, but when there is actual discussion having 
our attorney general, or public service department that is 
appointed by our Governor, and certainty community 
representatives from the southern Vermont area, is really 
consequential to considering the decision--getting evidence for 
the decisions you are going to make.
    Second, the decommissioning fund, how is that Trust Fund 
going to be used? Among the positions advocated by Entergy was 
to allow for spent fuel management and to store this in dry 
caps. They are also asking for attorney fees to be paid, 
membership dues at NEI. And our view is that this should be 
strictly tied to the purposes that are allowed by the statute.
    So the two things, as I mentioned, that we are really 
seeking in Vermont is one, a seat at the table for legitimate 
representatives of the community and the State through the 
public service department. And number two, strict monitoring 
and limited uses of that decommissioning fund itself.
    And then, finally, this whole question of SAFESTOR, which 
will have a 59-year lifespan minimum, means that site 
restoration is going to be postponed literally for generations, 
and there is a real big question as to whether or not we should 
try to proceed with decommissioning sooner rather than later, 
in 5 years rather than 60 years.
    So that is my opportunity to speak to you on something that 
is an enormous concern to our Governor down to the select 
boards in the region of southern Vermont where Entergy is 
exposed.
    So, Mr. Commissioner, I will start with you. Thank you all 
for your service. What can you tell me that I can tell my 
Governor and my select boards about their ability to have a 
seat at the table in an ongoing way as this decommissioning 
unfolds?
    Mr. Shimkus. And you have 5 seconds to do that. No, no, no.
    Mr. Welch. Thank you.
    Mr. Burns. Thank you for the question. What the NRC tries 
to do is ensure through part of its oversight program that 
there are opportunities for public engagement, public 
information and the like. There are, for example, I believe the 
attorney general has sought to intervene or raise contention in 
proceedings, one of our proceedings, I think, actually related 
to some of the decommissioning funding issues. So that is a 
more formal opportunity to participate, and that is a real 
opportunity to the extent there are issues that are within the 
scope of the particular action under consideration, the 
amendment, license or the like. Those are, I think, real 
opportunities to participate.
    With respect to SAFESTOR, our regulations allow for 
different options on for decommissioning, and that includes 
SAFESTOR, which is a longer period, in effect, into, if you 
will, stabilization of the facility until ultimate 
decommissioning occurs.
    From the NRC standpoint and the safety standpoint, we 
believe that that is a safe and legitimate way to go. Whether 
other means, for example, more immediate decommissioning, 
occurs is probably more a matter of the dialogue between the 
State and the company itself, because we have found that 
SAFESTORs is legitimate.
    Mr. Welch. Well, legitimate, but you understand there is a 
huge price that the community pays for that. You basically have 
this very important facility and location, in this case, along 
the banks of the Connecticut River, that essentially cannot be 
used or developed, and there is an enormous economic impact on 
the community when it loses the jobs that is associated with a 
nuclear plant; that is something they will have to contend 
with.
    And the aspect of your answer that is of some concern to 
me, is yes, you come to the conclusion that that is safe, but 
the question I am asking is, Are there other safe ways to do 
this that don't impose such an ongoing burden on the community 
where they can't use this resource and redevelop it?
    Mr. Shimkus. The gentleman's time is close--I mean, way 
over, but if the Chairman would respond.
    Mr. Burns. Essentially, the options are primarily SAFESTOR 
or going to a more immediate decommissioning and----
    Mr. Welch. Right.
    Mr. Burns. But again, the NRC, because it has found either 
of those options to be a safe option, we don't compel one 
versus the other.
    Mr. Shimkus. The Chair----
    Mr. Welch. Thank you very much, Mr. Chairman. The reason I 
do----
    Mr. Shimkus. No. It is very important to you, I know.
    Mr. Welch. This is going to face all of us who have any 
kind of nuclear facility, and having a legitimate way for the 
community to be heard through their Representatives, I think, 
is absolutely essential to the decommissioning process.
    Mr. Shimkus. Yes.
    Mr. Baran. Mr. Chairman, could I take just 10 seconds to 
add one more thing?
    Mr. Shimkus. If you take 10 seconds. I got my colleagues 
who have been waiting patiently.
    Mr. Baran. I just want to make sure that Mr. Welch knows we 
now have initiated a rulemaking to take a fresh look at a 
number of these issues, including what is the appropriate role 
for State and local governments and the public, when--is the 
current level public participation adequate; and also, looking 
at this question of right now there are these three options 
generally for decommissioning, including SAFSTOR. Is that 
appropriate or is that something we should reconsider? We are 
going to have an advanced notice of proposed rulemaking, 
looking at those and other decommissioning issues.
    Mr. Welch. Thank you.
    Mr. Shimkus. Thank you.
    The Chair now recognizes the gentleman from Texas, Mr. 
Flores, for 5 minutes.
    Mr. Flores. Thank you, Mr. Chair. Do I get 8 \1/2\ minutes 
too?
    Mr. Shimkus. Maybe 9 if you are nice.
    Mr. Flores. I am just teasing.
    I want to thank the Commissioners for joining us today. I 
have got a slide I would like to have up on the screen if we 
could, please.
    While the slide is coming up, I wanted to talk about macro 
issues, and this is the overall size and efficiency of the NRC. 
Look, I am a pro-nuclear person. I think it is the ultimate 
green fuel. It is the path forward for a low-carbon future, 
particularly when it comes to the generation of baseload 
electric power. But I have been somewhat concerned about the 
expansive growth of the NRC to fit what we thought was going to 
be a growth in nuclear generated electrical facilities, but it 
hasn't materialized. But nonetheless, the agency continued to 
grow. Hopefully this graphic will make it up pretty quickly.
    And so the growth that materialized because of market 
conditions, natural gas got very competitive in terms of 
generation capability, and there was some change in the 
regulatory environment that I think had an impact.
    [Chart follows.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Flores. If you look at this chart, you will see that 
the number of reactors and the number of licensing actions in 
2005 is about 1,600, different metrics that the agency, the 
Commission, was dealing with. Today there are, you said, 99. In 
2016, I think there is going to be another one coming online. 
So you will have 100. And then we are down to 900 licensing 
actions.
    So the total drop in activity for the NRC is around 38 
percent on a weighted average basis. But, the head count has 
grown by 21 percent over that time period. And the budget has 
grown by a whopping 54 percent. So, I mean, this squarely fits 
with what Reagan used to talk about when he talked about how 
the only thing that continues to--that have eternal life and to 
continue growing is a Federal agency.
    So my questions are this, and also some of the things I saw 
when you provided the document that is called the NRC Fiscal 
Year 2016 High-Level Impacts in Further Reduction, the 
Commission talked about these dire things that would happen for 
just a 3 percent cut in its budget, or 4- or 5 percent cut in 
its budget, and I was surprised. Was this document approved by 
the full Commission before it was sent to this committee? 
Chairman Burns, we will start with you.
    Mr. Burns. The document--again, I am sorry----
    Mr. Flores. The document was entitled ``NRC FY 2016 High-
Level Impacts in Further Reduction.'' And what it says, it 
purports to describe anticipated reductions in NRC activities 
with staffing at various levels of funding reductions. For 
example, the document claims that a reduction of $30 million, 
or just 3 percent of the NRC's current budget, and a reduction 
of 140 full-time equivalents, which, again, has grown by 21 
percent over the last 10 years, would result in a long list of 
severe impacts, including a reductions by 25 percent in NRC 
investigations of alleged criminal wrongdoing and termination 
of the program to supply potassium iodide tablets. So are you 
familiar with that document?
    Mr. Burns. Yes. And I think we provide--we developed that 
document, or staff developed that document, to give a picture 
of the impacts of budget levels at different levels.
    And, again, I think what--as we have tried to discuss here 
this morning through Project AIM, through our processes of 
planning and forecasting out, we are trying--we are taking 
steps to be more efficient. We see a longer term, a smaller 
NRC, that talks about 3,754 FTE. The Commission has put as a 
control point at the end of 2016, to be at 3,600 employees.
    Mr. Flores. Correct.
    Mr. Burns. So those--I think those are responsible, again, 
responsible steps. What I want to say, too, is we are looking 
at that in terms of, I think the priority of some of the work 
we need to get done. And some of that is working off, for 
example, licensing backload. And I think our staff has gone a 
great job doing that. So I think we are trying and taking the 
steps to be a responsible regulator recognizing the changed 
environment we are in, and we recognize we are going to be 
smaller in the long term.
    Mr. Flores. OK. Well, I mean. OK. Well, let me give you one 
example that says ``The new reactor's office is budgeted to 
review 14 applications, and is likely to have nine at most.'' 
And so it looks like that the Commission is over budgeted in 
just that one area by $30 million for work that really won't 
happen in 2016. So that is money that could be used somewhere 
else to help catch up and not cause all the dire consequences 
for a 3 percent cut in the budget.
    I have other questions, but I will submit those for the 
record in the interest of time. Again, I thank you for being 
here. Look, I want to reiterate. I am a pro-nuclear person, but 
we can't have this kind of unregulated growth when the market 
is saying: Hey, we are not there anymore. So thank you.
    Mr. Shimkus. I want to thank my colleague, and appreciate 
his focus.
    I would now like to turn to the gentleman from Ohio, Mr. 
Johnson. But before I do so, he spent his summer being an 
Undercover Boss. So I hope the NRC will not allow him to be an 
undercover boss in a nuclear control room.
    Mr. Johnson. That was on my list.
    Mr. Shimkus. Yes. I hope not.
    Mr. Johnson. I wouldn't want to be. I wouldn't want to be. 
Trust me.
    Well, thank you folks for being with us today. Very, very 
important things we are discussing.
    You know, on August 27 of this year, the Commission 
released the voting record on mitigating strategies for severe 
accident scenarios. A majority of the Commission voted to 
exclude Severe Accident Management Guidelines, or SAMG, S-A-M-
G, from NRC requirements primarily because SAMGs are not 
necessary for adequate protection and converting these 
voluntary industry efforts to a mandatory requirement supported 
by the kind of quantitative cost-benefit analysis mandated by 
the back-fit rule.
    Commissioner Ostendorff, in your vote on mitigation 
strategies, you expressed surprise that the staff decided to 
include new reactor design requirements as part of their 
proposal. Your vote explained that, and I quote, ``This 
provision should have been raised to the Commission as a 
separate matter in advance of the draft proposed rulemaking 
package,'' unquote. There were also significant concerns with 
the staff's reliance on various qualitative factors.
    So here is the question: Is there a tendency within the 
staff ranks to, perhaps, engage in mission creep, to take on 
activities or make proposals that are beyond the scope of the 
task that the Commission has assigned the staff? And how does 
the Commission guard against that tendency?
    Mr. Ostendorff. Thank you for the question. I personally 
believed in the context of this vote that the staff proposal to 
the Commission for a new reactor piece was outside the scope of 
what the Commission had previously directed. I would say that 
that is not a routine occurrence. It has happened just on a 
rare occasion, but, in this case, I disagree with what the 
staff did and I--I don't want to say I called them out on the 
vote, but I said I did not agree with how the staff approached 
it in this vote.
    Mr. Johnson. OK.
    Mr. Ostendorff. So this is not a--this is not a routine 
type occurrence by the staff. I would say it is rarely done. At 
the same time, we also want to foster an atmosphere at the NRC 
where the staff feels free to raise their best ideas, 
recognizing at the end of the day the Commission will make a 
decision.
    Mr. Johnson. Sure.
    Mr. Ostendorff. That is what we did.
    Mr. Johnson. I get that. I get that, that this may have 
been an outlier. But what is the proper role of the Commission 
in overseeing and directed the work of the NRC staff? Do you 
think this kind of thing could be prevented?
    Mr. Ostendorff. In this particular case, and, again, I 
think it is a little bit of an anomaly, Congressman, the 
Commission provides direction via what we call staff 
requirements memorandum that represent a majority view of the 
Commission that provides written direction to the staff. I 
think that process works very, very well. And I would say, by 
and large, our staff has been very diligent in complying with 
the staff requirement memorandums from the Commission. From 
time to time, there may be a difference of opinion. We don't 
want to squelch these other ideas, recognizing at the end of 
the day, the decision rests with the four of us at this table.
    Mr. Johnson. OK. The NRC folks has a long list of 
rulemakings in various stages of development. Will the 
Commission review all ongoing activities to prioritize and 
eliminate rulemakings with no safety-significant benefit as a 
part of the Project AIM baselining? Any of you?
    Mr. Burns. We look at the rulemaking, and in terms of our 
development process, but one of the--I think we will be looking 
at in terms of the re-baselining, and there is also what we 
call an add/shed process. You know, if you are going to add new 
things in, what--how it helps in terms of priorities. So we 
will be looking at that, I think, as part of that process. What 
we are getting from the staff is a proposal for how to do the 
re-baselining and which would--the Commission will act on.
    Mr. Johnson. OK. A 2014 Government Accountability Office 
report found the NRC had an average annual attrition rate of 
5.4 percent between 2004 and 2012. This equates to nearly 200 
NRC staff leaving the organization each year. However, Project 
AIM has a target of 3,600 staff for fiscal year 2016, a 
reduction of less than 100 from current staffing levels, and 
has suggested that only a slow and modest workforce reduction 
is achievable. So how is the Commission encouraging NRC staff 
to provide ambitious and achievable recommendations?
    Mr. Burns. With respect to attrition, it is not always 
where you want it or necessarily want it to be. For example, if 
you have in one area--you know, one of our, I think, challenges 
is in the administrative area, but not all those who decide to 
go to another job or retire go that way. So what we are trying 
to do is smartly focus that. We are looking at early outs and 
buy-outs using those authorities in consultation with the 
Office of Personnel Management. But, again, the Commission set 
this sort of a target point at 3,600 for the end of fiscal year 
2016. And, again, we hope we smartly can do that.
    Part of it is, too, is when you get some of that attrition, 
for example, if you have resident inspectors or inspectors 
attrited, those are things you want to replace to keep, you 
know, the key oversight aspects available. So it is not as easy 
sometimes as just the pure drift down from the 5 or 5.4 
percent.
    Mr. Johnson. OK. All right. Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman's time is expired.
    The Chair now recognizes the gentleman from Illinois, Mr. 
Kinzinger, for 5 minutes.
    Mr. Kinzinger. Well, thank you, Mr. Chairman. And thank you 
all for being here and the service that you do. Really 
appreciate it.
    You know, given that efficiency is one of the NRC's core 
values regarding the principles of good regulation on its Web 
site, one of which states that the American taxpayer, the rate-
paying consumer, and license fees are all entitled to the best 
possible management and administration of regulatory 
activities. I have a few questions regarding the budget and 
rulemaking process at the Commission as things currently stand.
    As a fee-based agency, your Commission is statutorily 
required to recover 90 percent of your budget through the 
annual collection of fees from licensees. And referring back to 
the value of efficiency as one of the NRC's principles of good 
regulation, it is pretty obvious that the need for an 
established credible process for developing a budget based on 
workload projections is necessary to determine responsible fee 
assessments. Unfortunately, the lack of an effective budget 
development process has long been an issue. In 2013, the NRC 
Inspector General found that the Commission had an incomplete 
implementation of planning, budgeting, and performance 
management process, and noted that the budget formulation and 
execution process are not actually aligned.
    Today, the lack of an effective budget development process 
is something that is still outstanding, which is why I raise 
this issue of particular concern through a letter to the GAO. 
In that letter is a request for the GAO to study and make 
recommendations on how best to improve the budget process for 
the NRC.
    Mr. Chairman, what is the status of the Commission's 
implementation of a new budget process?
    Mr. Burns. I believe a revised management directive, if it 
has not been issued, is pending. And I think it was created to 
address that aspect of----
    Mr. Kinzinger. So it is done? It is fixed?
    Mr. Burns. I need to just consult with our CFO just to 
confirm, but I believe that was a process underway. Whether 
that revised management directive has been issued, I am just 
not sure. Be happy to provide that----
    Mr. Kinzinger. Any other--go ahead.
    Ms. Svinicki. Under standing Commission direction, the 
revision to this budget process will have to be a vote of our 
Commission. Although I believe the chairman is probably 
reflecting the fact that the staff has prepared something for 
our consideration, it has not been submitted to us yet.
    Mr. Ostendorff. I would just say, Congressman, that we 
agree that there are some areas of needed improvement in the 
budget process. Maureen Wylie is our new chief financial 
officer who was brought into the agency from elsewhere in the 
Federal Government. We are very confident, under her 
leadership, we will be able to move forward and make these 
improvements.
    Mr. Kinzinger. So you all think by 2017 this is going to be 
the case? We are going to be in good shape on the budget 
process?
    Mr. Burns. I couldn't----
    Mr. Kinzinger. By 2017 we are going to be good? Hopefully?
    Mr. Burns. I think we will be.
    Mr. Kinzinger. OK. Good.
    Mr. Burns. I am confident.
    Mr. Kinzinger. I like to hear that. The NRC last updated 
its management directive governing the long-range planning 
budget formulation and resource management in 1989. Since that 
time, the organization has seen significant changes, both 
internally and with industry. NRC's inability to update this 
directive resulted in an inefficient process that complicates 
the overall effectiveness of the organization. Do you have any 
idea when the Commission will finalize updating its management 
directive?
    Mr. Burns. This is the one I was referring to, and 
Commissioner Svinicki reminded me, too, needs to come to the 
Commission. Again, the timing--we expect by the end of the 
year. That would be the objective, by the end of the year.
    Mr. Kinzinger. OK. And so I guess more generally, how can 
the Commission ensure that it is responsible to the--or 
responsive to the changing environment of the nuclear 
regulatory industry?
    Mr. Burns. Well, I would let others speak as well, but I 
think part of it is us listening, engaging with industry, other 
stakeholders. Some of what I think we have described here today 
in terms of thinking in the future in terms of are we going to 
get new types of applications, being open and hearing what 
people are thinking, what is on the minds of the industry. I 
think being responsive in things like the cumulative effects of 
regulation, that is, again, a way of us, I think, getting 
better doing our work in a more effective way and still 
focusing on what, at the end of the day, is our core mission: 
safety and security.
    Mr. Kinzinger. Good. Well, I appreciate, again, all your 
work. I have four nuclear power plants in my district. So this 
is very important to ensure that, you know, these are 
successful. They provide a lot of power for Illinois, lot of 
power for my district, and good-paying jobs. So we appreciate 
the security and safety, but we also appreciate you doing it 
without unnecessary burden on these fantastic power plants. So 
with that, I will yield back. Thank you.
    Mr. Shimkus. The gentleman yields back his time. And one of 
the questions I was going to ask, but I am not, I am just going 
to make a statement, is that when plants get decommissioned, if 
we don't look at adjusting the rate to pay for the process, the 
burden can get so high then you may have unintended 
consequences. So that is part of the budgetary questions I 
think my colleagues were trying to point to.
    But I want to thank you, right off of our break to be able 
to be in here, sit through two subcommittees for as long as you 
have. We appreciate the work you do. We appreciate the 
responses you provide to us, and also the work you do for this 
country.
    I want to remind you all that the hearing record will 
remain open for 10 business days. You may receive additional 
questions submitted for the record. We would ask you respond to 
any of those questions in 10 business days.
    And with that, seeing no other members, I will call this 
hearing adjourned.
    [Whereupon, at 12:09 p.m., the subcommittees were 
adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    Today we continue our oversight of the Nuclear Regulatory 
Commission and thank the Commissioners for joining us today. I 
would especially like to welcome Chairman Burns and 
Commissioner Baran on their first appearance with us since 
being confirmed a year ago.
    Clean, safe nuclear energy is, and will continue to be, a 
vital component of our diverse energy portfolio. Currently, 99 
operating nuclear power plants generate approximately 20 
percent of the electricity we consume. In 2016, the first new 
nuclear power plant in a generation is expected to begin 
operations in Tennessee, while four more reactors continue to 
make significant construction progress in Georgia and South 
Carolina.
    Just last week I visited the Cook Plant with my friend and 
former colleague, West Virginia Senator Shelley Moore Capito. 
Cook is one of the two nuclear power sites along the shoreline 
of Lake Michigan in my district. During our tour, we saw 
firsthand the safety and emergency preparedness upgrades that 
have taken place over the last 4 years as a result of the 
Commission's response to the Fukushima accident in Japan. NRC's 
``lessons learned'' process was a beneficial reexamination of 
the United States' nuclear fleet and identified improvements in 
safety and performance.
    While the Commission resolves the remaining safety 
significant post-Fukushima priorities, I encourage the NRC to 
next address issues and take action to increase the efficiency 
of the organization. Like all Government agencies, the NRC has 
a responsibility to be a good steward of taxpayer resources, be 
responsive in a transparent and timely manner to its licensees, 
and adhere to its organizational principles to execute its 
mission. An NRC well positioned for the 21st century will help 
ensure nuclear continues to help power the United States for 
generations to come.

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Mr. Burns' response to submitted questions for the record 
has been retained in committee files and also is available at  
http://docs.house.gov/meetings/IF/IF18/20150909/103923/HMTG-
114-IF18-Wstate-BurnsS-20150909-SD057.pdf.]

                                 <all>
</pre></body></html>
